No. 19-____
IN THE

Supreme Court of the United States
_______________________

DAVID ZACHERY MORGAN,
Petitioner,
v.
STATE OF WASHINGTON,
Respondent.
_______________________

On Petition for a Writ of Certiorari to the
Supreme Court of Washington
_______________________

PETITION FOR A WRIT OF CERTIORARI
_______________________

AMIR H. ALI
Counsel of Record
ANTHONY BALKISSOON
RODERICK & SOLANGE
MACARTHUR JUSTICE CENTER
777 6th Street NW, 11th Fl.
Washington, DC 20001
(202) 869-3434
amir.ali@macarthurjustice.org
KATHLEEN A. SHEA
WASHINGTON APPELLATE PROJECT
1511 Third Avenue, Suite 610
Seattle, Washington 98101
Counsel for Petitioner

QUESTION PRESENTED
Whether a government official who would like to
seize someone’s personal property, and has both probable cause and the time to obtain a warrant, must
bring his probable cause to a magistrate to obtain a
warrant or may, under the plain-view exception, just
send a fellow officer to go take it?

(i)

ii
TABLE OF CONTENTS
Page(s)
Question Presented ............................................................. i
Table Of Authorities ......................................................... iv
Opinions Below .................................................................. 1
Jurisdiction ........................................................................ 1
Constitutional Provisions Involved ................................... 2
Introduction........................................................................ 3
Statement Of The Case ...................................................... 6
Reasons For Granting The Petition ................................. 13
I. Lower Courts Are In Conflict Over Whether
“Immediately Apparent” Requires A Causal
Connection Between An Officer’s Perception Of
The Seized Item And Probable Cause (“A Vital
Constraint”) Or It Just Means Probable Cause
(“Carries No Independent Meaning”). ....................... 15
II. The Decision Below “Conflicts With Relevant
Decisions Of This Court.” Sup. Ct. R. 10(c). .............. 21
III. The Question Presented Is Important. ...................... 22
IV. The Court Should Grant This Case. .......................... 24
Conclusion ........................................................................ 25

iii
Appendix A
State v. Morgan, 440 P.3d 136 (Wash. 2019) ............... 1a
Appendix B
State v. Morgan, No. 75072-1-I, 2018 WL 2418483
(Wash. Ct. App. May 29, 2019) ................................... 18a
Appendix C
Excerpts of Feb. 17, 2016 Proceedings,
State v. Morgan, No. 14-1-2409 (Wash. Super. Ct.) ... 55a
Appendix D
Excerpts of Feb. 4, 2016 Proceedings,
State v. Morgan, No. 14-1-2409 (Wash. Super. Ct.) ... 57a

iv
TABLE OF AUTHORITIES
Page(s)
Cases
Coolidge v. New Hampshire,
403 U.S. 443 (1971) ............................................. passim
Florida v. Jardines, 569 U.S. 1 (2013) ............................. 22
Horton v. California, 496 U.S. 128 (1990) ................ passim
Johnson v. United States, 333 U.S. 10 (1948) ................. 21
People v. Swietlicki, 361 P.3d 411 (Colo. 2015) ........... 5, 20
Soldal v. Cook Cty., Ill., 506 U.S. 56 (1992) .............. 13, 14
State v. Dobbs,
323 S.W.3d 184 (Tex. Ct. Crim. App. 2010) ............... 18
Texas v. Brown, 460 U.S. 730 (1983) ............................... 21
United States v. Beal,
810 F.2d 574 (6th Cir. 1987) ...................................... 16
United States v. Byrd,
211 F.3d 1270 (6th Cir. 2000) .............................. 15, 19
United States v. Garces,
133 F.3d 70 (D.C. Cir. 1998)................................. 17, 18
United States v. Garcia,
496 F.3d 495 (6th Cir. 2007) ............................ 4, 15, 19
United States v. Jones, 565 U.S. 400 (2012) .................... 22
United States v. McLernon,
746 F.2d 1098 (6th Cir. 1984) ............................. passim
United States v. McLevain,
310 F.3d 434 (6th Cir. 2002) ...................................... 22
United States v. Place, 462 U.S. 696 (1983) ................ 4, 13
United States v. Rutkowski,
877 F.2d 139 (1989) ........................................ 16, 17, 19
Constitutional Provisions
U.S. Const. amend. IV.................................................... 2, 3
Statutes
28 U.S.C. § 1257(a) ............................................................. 1

v
Other Authorities
Maureen E. Brady, The Lost “Effects” of the Fourth
Amendment: Giving Personal Property Due
Protection, 125 Yale L.J. 946 (2016) .................... 22, 23
Sup. Ct. R. 10(c) ............................................................... 21

IN THE

Supreme Court of the United States
_______________________

DAVID ZACHERY MORGAN,
Petitioner,
v.
STATE OF WASHINGTON,
Respondent.
_______________________

On Petition for a Writ of Certiorari to the
Supreme Court of Washington
_______________________

PETITION FOR A WRIT OF CERTIORARI
_______________________

David Zachery Morgan petitions for a writ of certiorari to review the Supreme Court of Washington’s
judgment in this case.
OPINIONS BELOW
The Supreme Court of Washington’s opinion (Pet.
App. 1a-17a) is published at 440 P.3d 136. The state
court of appeals’ opinion (Pet. App. 18a-54a) is unpublished, but available at 2018 WL 2418483. The trial
court’s oral ruling (Pet. App. 55a, 57a) is unpublished.
JURISDICTION
The Supreme Court of Washington entered judgment on May 16, 2019. On July 29, 2019, Justice
Kagan granted a 60-day extension of time to file this
petition, making it due on October 15, 2019. The Court
has jurisdiction under 28 U.S.C. § 1257(a).
(1)

2

CONSTITUTIONAL PROVISIONS INVOLVED
The Fourth Amendment to the U.S. Constitution
provides:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be
violated, and no Warrants shall issue, but upon
probable cause, supported by Oath or affirmation,
and particularly describing the place to be searched, and the persons or things to be seized.

3
INTRODUCTION
The government frequently wants peoples’ things.
It may, for instance, have good reason to think those
things would help it incriminate someone. But the
Fourth Amendment tells the government it cannot
just decide that it should have a person’s things and
then go take them. Absent a few carefully wrought
exceptions, the government must bring its “probable
cause” to a magistrate and get a warrant before it
takes your stuff. U.S. Const. amend. IV.
In the decision below, a majority of the Washington Supreme Court interpreted the “plain-view” exception in a manner that guts this constitutional protection. Adopting the State’s position, the court held
that a government official who thinks he has probable
cause to believe someone’s property has evidentiary
value and who encounters no exigent circumstance
that makes it unrealistic to get a warrant, may
lawfully skip the warrant and just send his fellow
officer to “view” and then take the desired property.
It is undisputed that is what happened here. When
investigating a fire, a supervising officer learned,
third-hand, that someone smelled gasoline on Petitioner’s clothing. Pet. App. 2a. The supervisor told his
subordinate officer to go “collect [Petitioner’s] clothing.” Id. So, the officer did. After spending “hours”
talking to Petitioner in his hospital room, the officer
saw some opaque shopping bags that he believed to
contain Petitioner’s clothing. Pet. App. 2a-3a. Without
knowing or perceiving anything incriminating about
the bagged clothes, the officer took them. Pet. App. 7a8a.

4
The decision upholding this seizure quite clearly
violates this Court’s plain-view caselaw, and it joins
the wrong side of a split. This Court has recognized
that, absent a warrant founded on probable cause or
a recognized exception, the “seizure of personal property [is] per se unreasonable within the meaning of
the Fourth Amendment.” United States v. Place, 462
U.S. 696, 701 (1983). The Court has, of course, recognized that in certain circumstances officers may seize
property they discover in plain view; but, the Court
has, for obvious reasons, restricted that exception to
circumstances in which probable cause became “immediately apparent” from the officer’s perceptions of
the item. Horton v. California, 496 U.S. 128, 136
(1990). That’s obvious because absent some perception
about the property that sparks, or at least adds to,
probable cause, the “exception” would swallow the
rule: An officer who has the probable cause necessary
to obtain a warrant would be able to just forgo the
warrant, track down the property he wants, and seize
it.
Accordingly, most lower courts hold “immediately
apparent” means, at a minimum, that there must be
a causal connection between the officer’s perception of
the item seized and probable cause: “The agents’ ‘immediate’ sensory perception must produce probable
cause of crime.” United States v. McLernon, 746 F.2d
1098, 1125 (6th Cir. 1984) (quoting Coolidge v. New
Hampshire, 403 U.S. 443, 470 (1971)). In those jurisdictions, the “immediately apparent” requirement
acts as a “vital constraint” against the government’s
circumvention of the warrant requirement. United
States v. Garcia, 496 F.3d 495, 510 (6th Cir. 2007). In
conflict, two state high courts interpret “immediately

5
apparent” to require no causal connection between the
officer’s “viewing” of the object and the probable cause
justifying its seizure. That’s clearest here, where it is
undisputed the seizing officer did not perceive anything incriminating about Petitioner’s (bagged) clothing when he seized it. In these jurisdictions, “immediately apparent” is equated with mere probable cause
and “carries [no] independent meaning.” People v.
Swietlicki, 361 P.3d 411, 416 (Colo. 2015).
Resolution of this conflict is important. This Court
has described its condition that probable cause be “immediately apparent” as central to ensuring the plainview exception does not enable the sort of “general, exploratory rummaging in a person’s belongings” that
the Framers “abhorred.” Coolidge v. New Hampshire,
403 U.S. 443, 467 (1971) (plurality opinion). And,
merits aside, when this Court says there are “conditions that must be satisfied” for a government seizure
to be lawful under the Fourth Amendment, Horton,
496 U.S. at 136, lower courts have no place rendering
one of those conditions meaningless.
This case is an unusually good vehicle: The plainview exception—and, in particular, the “immediately
apparent” requirement—was the sole basis for the
decision below, which explicitly rejected the State’s
only other asserted justification. The State has never
argued harmless error. And the factual predicate to
resolve the conflict of authority is embedded in the
seizure at issue: The State has conceded that the seizing officer did not and, in fact, could not have perceived any new information about Petitioner’s opaquely
bagged clothing and seized it based on his supervisor’s
instruction to do so.
This Court should grant certiorari.

6
STATEMENT OF THE CASE
1. On November 16, 2014, a neighbor saw Petitioner’s house on fire and called 911. Pet. App. 19a.
Firefighters arrived and found Petitioner lying in the
driveway. Id. Petitioner had a wound on his head,
blood on his hands and clothing, and hair singed by
fire. Id. Firefighters asked Petitioner whether anyone
was in the house. Id. Petitioner was able to mumble
“garage” and handed them the garage door opener. Id.
In the garage, firefighters found Petitioner’s ex-wife,
lying on her back with severe burns and in a pool of
blood, and smelling of gasoline. Id. Paramedics transported both Petitioner and his ex-wife to hospitals for
treatment, and smelled gasoline on each of their clothing. Pet. App. 2a.
Officer Christopher Breault was sent to Petitioner’s hospital room to provide his supervising officer
with “medical updates” and to confirm that Petitioner’s daughter was somewhere safe. Pet. App. 2a-3a,
12a-13a. The supervising officer, who learned from a
firefighter that paramedics thought they smelled
gasoline on Petitioner’s clothes, also instructed Officer
Breault to “collect [Petitioner’s] clothing.” Pet. App.
2a, 12a-13a; CP 208.1 Officer Breault was not told nor
himself aware of anything incriminating about Petitioner’s clothing. Pet. App. 14a-15a.
Officer Breault spoke with Petitioner in his hospital room, and Petitioner confirmed his daughter was
safe at her grandmother’s house and “spoke freely
“CP” refers to the Clerk’s Papers on Appeal, lodged with the
Washington Supreme Court. “RP” refers to the verbatim report
of proceedings, i.e., the consecutively paged transcript of the trial
court proceedings.
1

7
with the officer regarding his memory of events.” Pet.
App. 2a, 20a. After speaking with Petitioner “for
hours,” Officer Breault saw several opaque plastic
shopping bags on the back counter of Petitioner’s hospital room, and believed them to contain Petitioner’s
clothing. Pet. App. 2a, 37a, 45a. Without consent,
Officer Breault took the clothing from the bags. Pet.
App. 37a.2
The State later analyzed the clothing, which tested
negative for hydrocarbons. CP 350-51.
2. The State charged Petitioner with arson,
assault, and attempted murder. Its theory at trial was
that the cause of the fire could not be scientifically
determined, but it could not be ruled out that Petitioner intentionally started it. RP 762, 890-91. The State
sought to use the pattern of blood on Petitioner’s clothing to argue that he must have attacked his ex-wife,
and that one could therefore also infer he intentionally started the fire. RP 2747-50.
Petitioner moved to suppress the clothing under
the Fourth Amendment and state constitution, CP
298, 302, and the State opposed. The State conceded
that Officer Breault seized Petitioner’s clothing “on
the basis of somebody telling him to do so” and that he
While he was at it, Officer Breault seized Petitioner’s cellphone,
too. CP 327. At trial, Petitioner had no reason to challenge that
seizure.
2

Sometime after seizing Petitioner’s clothing and cellphone, officers observed Petitioner’s utility knife on the counter, which had
some blood on it. CP 327, 346-348; Pet. App. 3a, 14a n.7. It is
undisputed that neither the fire nor the wounds of Petitioner’s
wife could have been caused by a utility knife. RP 678-79 (the
State’s medical expert testifying that a knife “could not have
caused” any of the injuries).

8
could not see anything incriminating about the clothing through the opaque plastic bags. RP 146; Pet. App.
58a-59a. However, the State argued that the seizure
was justified under the plain-view exception because
Officer Breault’s supervisor was aware that blood had
been seen, and gasoline had been smelled, on Petitioner’s clothing. CP 214-16; RP 145-46. The State
argued, in the alternative, that the seizure was
justified based on exigency. CP 213-14.
The trial court firmly rejected application of the
plain-view exception. According to the court, the question of whether a direction to seize could be the basis
for a plain-view seizure was an “easy” no. RP 145. The
court chided the State for not “giving up” its plainview argument, given that Officer Breault was simply
“sent there to collect” the clothing and could not even
“see through” the “opaque shopping bags.” Pet. App.
58a. However, the court held the seizure of Petitioner’s clothing could be justified by exigent circumstances. Pet. App. 56a, 60a-61a.3
The jury accepted the State’s theory and found
Petitioner guilty of the charges.
3. The court of appeals reversed, holding that the
seizure of Petitioner’s clothing was unlawful. First,
the court held the State failed to show any exigency.
Pet. App. 43a. According to the court, the record was
“devoid of any evidence showing that it was impractical” to get a warrant before seizing the clothing. Pet.
The trial court held that exigent circumstances could not justify
the post-seizure analysis of the blood patterns on Petitioner’s
clothing; however, in light of its conclusion that the clothing had
been properly seized, the court allowed the State to obtain a
warrant to repeat its analysis.
3

9
App. 39a. On the contrary, “[t]he bagged clothing remained undisturbed for hours on a shelf in the hospital room, while [Petitioner] was almost constantly in
the presence of police officers” and “not going anywhere.” Pet. App. 41a.
Second, the court of appeals held that the seizure
of Petitioner’s clothing could not be justified under the
plain-view exception. The court explained that, for the
plain-view exception to apply, “the incriminating character must be immediately apparent.” Pet. App. 45a.
Here, however, Officer Breault did not “detect the
scent of gasoline” or perceive anything else about the
clothing’s evidentiary value upon seeing it—indeed,
the clothing “was inside apparently opaque hospital
bags.” Id.
Accordingly, the court of appeals held the seizure
of Petitioner’s clothing was unlawful. Pet. App. 45a46a. The court noted that “[t]he State does not argue
that this error was harmless” and held that “[o]n this
record, it could not so argue.” Pet. App. 43a, 46-47a.
4. The State petitioned for review, asking the
Washington Supreme Court to decide whether the
plain-view exception is satisfied “[w]hen police have
probable cause that items have evidentiary value” or
additionally requires the State to show that the items’
incriminating nature was “immediately apparent.”
State’s Pet. for Review 1.4 The State acknowledged
that, here, “the seizing officer had not smelled the
In particular, the State posed the following question for review:
“When police have probable cause that items have evidentiary
value, is a ‘plain view’ seizure nonetheless invalid if the incriminating nature of the evidence is not ‘immediately apparent’?”
State’s Pet. for Review 1.
4

10
scent of gasoline or observed blood or other relevant
crime information.” Id. at 11. It argued that under the
plain-view exception, however, “[t]here is only a
requirement that [officers] have probable cause based
on the surrounding circumstances” and, here, “the
previously-detected odor of gasoline[] provided that
probable cause.” Id. Petitioner disagreed and argued
that the plain-view exception “requires the nature of
the evidence be immediately apparent to the officer.”
Pet’r’s Answer to Pet. for Review 8. Here, “the nature
of the evidence was not immediately apparent to
Officer Breault because the clothing was bagged in
opaque shopping bags and Officer Breault had detected no odor of gasoline or other accelerant coming from
the bags.” Id.
The Washington Supreme Court granted review.
The State’s merits briefing argued that the “immediately apparent” requirement does not confine the
plain-view exception to circumstances where seizing
officers “observe something incriminating about the
items” that causes them to have probable cause for
seizure. State’s Wash. Sup. Ct. Br. 9-10. Thus, the
State contended, it was irrelevant that “neither blood
nor other relevant crime information could be seen
through the plastic bag.” Id. According to the State,
the plain-view exception allows officers to forgo a warrant whenever they have probable cause: “Because
probable cause existed, the ‘immediate knowledge’
requirement was satisfied.” Id. at 11-12. Petitioner
urged that although this Court has held the plainview exception does not turn on “inadvertence” or
what officers subjectively “believe,” it has always
confined the exception to circumstances where “the

11
‘incriminating character’ of [evidence] was ‘immediately apparent’ to the officers.” Pet’r’s Wash. Sup.
Ct. Br. 15 (quoting Horton, 496 U.S. at 131).5
In a 7-2 decision, the Washington Supreme Court
reversed. All members of the court agreed “exigent
circumstances did not exist.” Pet. App. 4a-5a, 8a.
However, they divided over whether the seizure of
Petitioner’s clothes could be justified based on the
plain-view exception.
The majority held it could. According to the court,
the dispositive issue was whether “it was immediately
apparent that the clothing was associated with criminal activity.” Pet. App. 7a.6 The court stated that
“[o]bjects are immediately apparent under the plain
view doctrine ‘when, considering the surrounding circumstances, the police can reasonably conclude’ that
the subject evidence is associated with a crime.” Id.
Applied here, it was sufficient that the supervising
officer was “aware of the evidentiary value of [Petitioner’s] clothing” and “instructed Officer Breault to
collect it.” Id. Officer Breault could have “reasonably
concluded” the clothing would have evidentiary value
The State did not dispute the court of appeals’ conclusion that
the trial court’s admission of the clothing, if erroneous, could not
be considered harmless.
5

The State also petitioned for review on the question of whether
state constitutional law imposed an additional requirement of
subjective “inadvertence.” State’s Pet. for Review 1. It argued
that the court should interpret the state constitution consistent
with this Court’s decision in Horton, 496 U.S. 128 (rejecting a
subjective inadvertence requirement). State’s Wash. Sup. Ct. Br.
2-3, 9. The majority agreed, and held that under the state constitution and the Fourth Amendment alike, there is “no separate
inadvertence requirement in the plain view doctrine.” Pet. App.
6a-7a (adopting this Court’s analysis in Horton, 496 U.S. 128).
6

12
“[w]ithout examining [it],” because the clothing “was
expected to be in the hospital room and was detectable
in the plastic hospital bags.” Id.
Two justices dissented. In their view, “the chain of
events here clearly support[ed] issuance of a warrant,”
but the decision to skip to the warrantless seizure of
Petitioner’s clothing did “not fit within any of the ‘jealously and carefully drawn exceptions’ to the warrant
requirement.” Pet. App. 10a. According to the dissent,
the majority’s opinion amounted to an “unprecedented
application of the plain view doctrine.” Id.
The dissent reasoned, first, that for the plain-view
exception to apply, “it must be immediately apparent
to the seizing officer that evidence he has discovered
is associated with criminal activity.” Id. That requirement could not be satisfied here because, even insofar
as Officer Breault believed the opaque bags contained
Petitioner’s clothing, “he did not observe anything
about the clothing that could be described as incriminating”—indeed, his “description of the plastic bags
suggests the clothing was not observable through the
bags at all.” Pet. App. 10a, 13a, 14a. The majority’s
holding thus “divorces the observations of the seizing
officer from the seizure.” Pet. App. 10a.
In addition, the dissent reasoned, to uphold Officer
Breault’s seizure despite his lack of any personal
knowledge of anything incriminating, the majority
had to “import” into the plain-view exception the
collective-knowledge or “fellow-officer” doctrine that
this Court has applied in the context of arrests. Pet.
App. 10a-11a, 15a-16a (citing Whiteley v. Warden,
Wyo. State Penitentiary, 401 U.S. 560 (1971)). According to the dissent, the government could not rely on
the knowledge of absent officers to show probable

13
cause was “immediately apparent” for “obvious reasons”—namely, “it cannot be plain to the seizing
officer that he is viewing incriminating evidence unless he observes it and is himself aware of the surrounding facts and circumstances.” Pet. App. 11a. In
the dissent’s view, it was dispositive that “Officer
Breault saw nothing to justify a plain view seizure.”
Pet. App. 16a. That the supervising officer “had more
than enough information to obtain a warrant” indicated only that he could have and should have done so
before directing another officer to go seize Petitioner’s
property. Id.
REASONS FOR GRANTING THE PETITION
Absent a warrant founded on probable cause or a
recognized exception, the government’s “seizure of
personal property [is] per se unreasonable within the
meaning of the Fourth Amendment.” United States v.
Place, 462 U.S. 696, 701 (1983). This Court has, of
course, recognized that “under certain circumstances,” a government official may “seize evidence in
plain view without a warrant.” Coolidge v. New
Hampshire, 403 U.S. 443, 465 (1971). The Court has
cautioned, however, that if this exception is to remain
“legitimate,” it must be “limited,” id., and “scrupulously subjected to Fourth Amendment inquiry,” Soldal v.
Cook Cty., Ill., 506 U.S. 56, 66 (1992).
The Court has thus adhered to three “conditions”
for a valid plain-view seizure. Horton v. California,
496 U.S. 128, 136 (1990). Two go to the government’s
lawful presence and access: the officer must “be lawfully located in a place from which the object can be
plainly seen”; and he must “have a lawful right of
access to the object itself.” Id. at 137. The third condition is that the officer’s probable cause to seize the

14
item must have become “immediately apparent.” Id.
at 136; Soldal, 506 U.S. at 66, 69. This last requirement, the Court has said, is critical to ensuring that
the plain-view exception does not enable the very evil
that the Fourth Amendment is meant to proscribe:
Confining the exception to circumstances where probable cause was “immediately apparent” prevents the
government from using its mere access to desired
property as an end-run around having a neutral magistrate determine whether the property can be seized
and thereby safeguards citizens from the sort of “general, exploratory rummaging in a person’s belongings”
that the Framers “abhorred.” Coolidge, 403 U.S. at
467.7
The scope of this Court’s “immediately apparent”
requirement is the subject of a split, and the court
below joined the wrong side of it. Resolution of the
split is important—central to ensuring the constitutional protection afforded to personal property and to
providing clear rules to law enforcement. Satisfaction
of the “immediately apparent” requirement was the
sole basis for the decision below, and the State has
conceded at every stage that any error was not
harmless. The Court should grant certiorari.

Although early plain-view caselaw suggested an additional
requirement of subjective “inadvertence,” the Court has since
rejected that requirement and articulated the three factors
discussed. See Horton, 496 U.S. at 136-37.
7

15
I. Lower Courts Are In Conflict Over Whether
“Immediately Apparent” Requires A Causal
Connection Between An Officer’s Perception
Of The Seized Item And Probable Cause (“A
Vital Constraint”) Or It Just Means Probable
Cause (“Carries No Independent Meaning”).
Most jurisdictions interpret this Court’s condition
that probable cause be “immediately apparent” for
plain-view seizures to require at least a causal, and
sometimes even a temporal, nexus between the
government’s perception and its probable cause.
The Sixth Circuit, for instance, requires both. It
understands “immediately apparent” to call for a twopart test: “[W]here the government attempts to excuse
the warrantless seizure of evidence under the ‘plain
view’ exception, a reviewing court must ‘determine
whether, under the circumstances of each case, probable cause was both “immediate” and “apparent” to
the executing officers from the nature of the object
viewed.’” United States v. McLernon, 746 F.2d 1098,
1124-25 (6th Cir. 1984); see also United States v. Byrd,
211 F.3d 1270 (6th Cir. 2000) (table) (“[W]e have said
that probable cause to believe there is a nexus
between the item and illegal activity must be both
immediate and apparent to the officers from the
object’s nature.”). For probable cause to be “immediate,” it must have both a temporal and causal
connection to the officer’s perception: “The agents’
‘immediate’ sensory perception must produce probable cause of crime.” McLernon, 746 F.2d at 1125
(citation omitted); see also United States v. Garcia,
496 F.3d 495, 511 (6th Cir. 2007) (“[T]he officer must
recognize the incriminating nature of an object as a
result of his ‘immediate’ or ‘instantaneous sensory

16
perception.’”); United States v. Beal, 810 F.2d 574, 577
(6th Cir. 1987) (“[T]o be immediate, probable cause
must be ‘the direct result of the officer’s instantaneous
sensory perception of the object.’”).8
Applying this test, the Sixth Circuit has expressly
rejected the view that having probable cause is itself
sufficient to satisfy the “immediately apparent” requirement. In McLernon, the district court had adopted that view, concluding that “immediately apparent”
means “the police need only have probable cause to
believe the seized item has criminal significance or
evidentiary value.” 746 F.2d at 1125. The Sixth
Circuit reversed, concluding that “absolutely nothing”
in this Court’s or its own precedent supports that view
and it “unequivocally adhered” to its two-part test requiring that probable cause be immediate and apparent. Id.; see also id. (stating that the court “do[es] not,
and cannot, subscribe to” the view that probable cause
alone is sufficient, which would allow “officers of the
state to seize an item as evidence merely because it is
in ‘plain view’”). Upon finding that “probable cause
was neither ‘immediate’ nor ‘apparent’ to [the seizing
officers] from their ‘plain view’ of the objects,” the
Sixth Circuit rejected the government’s plain-view
justification and ordered suppression. Id. at 1126.
The First Circuit’s foundational plain-view case,
United States v. Rutkowski, 877 F.2d 139 (1989), described this causal and temporal limitation by refe-

The second part of the test, whether probable cause was “apparent,” requires that probable cause concerning an item’s “evidentiary significance” arise from the officer’s “perception of the items
seized.” McLernon, 746 F.2d at 1126.
8

17
rence to the proverbial “light bulb” that must illuminate in the officer’s mind when he sees the item seized
during a search. Id. at 142. “[I]f the light does not
shine during the currency of the search, there is no
‘immediate awareness’ of the incriminating nature of
the object.” Id. “Put in more conventional terms, the
officers’ discovery of the object must so galvanize their
knowledge that they can be said, at that very moment
or soon thereafter, to have probable cause to believe
the object to be contraband or evidence.” Id.; see also
id. at 143 (endorsing the Sixth Circuit’s refusal to
apply plain-view exception where “probable cause . . .
was neither ‘immediate’ nor ‘apparent’” and emphasizing that the plain-view exception requires a showing that the item seized was incriminating “by virtue
of its intrinsic nature” or gave rise to probable cause
“at the time of the search” (quoting United States v.
Szymkowiak, 727 F.2d 95, 99 (6th Cir. 1984))).
Other jurisdictions have maintained the limitation
of a causal connection between the officer’s perception
of the object seized and the probable cause to seize it,
but have relaxed or disclaimed a temporal limitation.
The D.C. Circuit, for instance, has held that although
“taken literally” the “immediately apparent” requirement “sounds temporal” and would require officers to
generate probable clause “at the precise moment they
first spotted” the seized item, its “true meaning” is
causal: “the incriminating nature of the item must
have become apparent, in the course of the search.”
United States v. Garces, 133 F.3d 70, 75 (D.C. Cir.
1998) (emphasis in original). Still endorsing the First
Circuit’s light-bulb metaphor, the court added emphasis that the probable-cause light bulb must “shine

18
during the currency of the search.” Id. at 76 (emphasis
in original) (quoting Rutkowski, 877 F.2d at 142).
The Court of Criminal Appeals of Texas has similarly interpreted this Court’s “immediately apparent”
language to require a causal connection, though not a
temporal limitation, with reference to historical and
dictionary definitions of immediacy. In State v. Dobbs,
323 S.W.3d 184 (Tex. Ct. Crim. App. 2010), officers
executing a search warrant for narcotics came across
clothing and golf clubs that were not covered by their
warrant and, when they discovered the items, “lacked
probable cause to believe that these items were
connected to any crime.” Id. at 185. While still conducting their search, the officers received information
that clothing and clubs, the appearance of which
matched the ones the officers were looking at, had
been stolen, which “gave the officers probable cause to
believe that the items they had come across in plain
view in the bedroom were those that had been stolen.”
Id. at 186. The Court of Criminal Appeals held that
“immediately apparent” did not require officers to
have probable cause “at the very instant they first see”
the items. Id. at 186-87. It reasoned that this Court
used the term “immediate” in its historical sense,
which “denote[s] a causational rather than temporal
relationship”—i.e., that seeing the item be a “direct”
or “proximate cause” of probable cause. Id. at 189
n.14. The critical inquiry is thus whether “probable
cause . . . arises” during the time the police are
present. Id. at 185. Because the officers in Dobbs
“developed probable cause to believe [the items] were
stolen” during their search, the causal requirement
was satisfied. Id. at 188.

19
By requiring, at a minimum, a causal connection
between the government’s probable cause and perception of the item seized, these jurisdictions enforce this
Court’s “immediately apparent” condition as “a vital
constraint” against circumvention of the warrant
requirement. Garcia, 496 F.3d at 510; see also Byrd,
211 F.3d 1270 (describing “[t]he ‘immediately incriminating’ requirement of the plain view test” as
“especially important” because it “limits the scope of
searches” and “prevents them from becoming licenses
for ‘general rummaging’”); Rutkowski, 877 F.2d at 144
(recognizing that the requirement follows from “‘the
need for courts to delineate exceptions to the fourth
amendment’s warrant requirement ‘jealously and
carefully’” (quoting Coolidge, 403 U.S. at 455)).
In contrast to these jurisdictions, the Colorado and
Washington high courts have interpreted the Fourth
Amendment to permit plain-view seizures whenever
officers have probable cause, irrespective of any causal connection to seeing the item. That is perhaps
most clear here, where the officer was specifically sent
to “collect” the property seized and did not perceive
anything about the property, which was in opaque
bags. See Pet. App. 7a (concluding that the seizure of
Petitioner’s clothing “[w]ithout examining the clothing” at all was lawful because all that is required is
that police have probable cause, i.e., “can reasonably
conclude,” that “the subject evidence is associated
with a crime”). It was sufficient that the supervising
officer (who had time to obtain a warrant) was “aware
of the evidentiary value of [Petitioner’s] clothing” and
the clothing “was expected to be in the hospital room
and was detectable in the plastic hospital bags.” Id.

20
The Colorado Supreme Court has adopted the
same interpretation of “immediately apparent.” In
People v. Swietlicki, 361 P.3d 411 (Colo. 2015), a detective learned that the defendant had sexually assaulted a minor and the detective had probable cause to
believe the defendant had child porn on a laptop. Id.
at 412-14. After an officer located and arrested the
defendant, he returned to the house of the defendant’s
relative, who pointed out a laptop belonging to the
defendant. Id. at 413. The officer, who could not perceive anything incriminating about the laptop, called
the lead detective and “[a]t [the detective’s] behest,”
seized the laptop without a warrant. Id. at 413.9
As here, the sole issue was the meaning of this
Court’s “immediately apparent” requirement. Id. at
415. The Colorado Supreme Court concluded that this
Court’s caselaw “conclusively forecloses” a causal or
temporal restriction and has instead “equated this
language to probable cause.” Id. That is, “the ‘immediately apparent’ requirement of the plain view exception means nothing more than the police must possess
probable cause without conducting a further search.”
Id. The court therefore concluded that this Court’s
“immediately apparent” requirement “carries [no]
independent meaning.” Id. at 416.10

As here, the officer decided to seize the defendant’s cellphone,
too, and admission of the cellphone did not become an issue.
Swietlicki, 361 P.3d at 413 n.2.
9

As here, the defendant in Swietlicki sought suppression based
on both the Fourth Amendment and the relevant state constitutional provision. The court acknowledged that its decision upholding the search necessarily served as an interpretation of both
the federal and state constitutions. 361 P.3d at 414 n.3.
10

21
II.

The Decision Below “Conflicts With Relevant Decisions Of This Court.” Sup. Ct. R.
10(c).

When this Court interprets the Fourth Amendment and articulates “conditions that must be satisfied” for a search to be reasonable, Horton, 496 U.S. at
136, lower courts have no place rendering one of those
conditions void of meaning. Yet that is precisely what
Colorado and Washington have done. If all that is required to seize property is access and prior knowledge
about the item that amounts to probable cause, then
this Court’s condition that “the object’s incriminating
character must also be ‘immediately apparent’” does
no work. Id.
For a similar reason, the decision below is obviously wrong. The very purpose of the warrant requirement is to have probable cause determined “by a neutral and detached magistrate instead of being judged
by the officer engaged in the often competitive enterprise of ferreting out crime.” Johnson v. United States,
333 U.S. 10, 13-14 (1948). If the government is permitted to bypass a magistrate’s finding of probable cause
by a court’s post-hoc determination that probable
cause existed, the warrant requirement is useless. See
Coolidge, 403 U.S. at 466 (observing that the plainview exception is “[o]f course . . . legitimate only where
it is immediately apparent to the police that they have
evidence before them”).
Moreover, this Court has uniformly understood the
plain-view exception not as some cumulative calculation of probable cause across absent officers, but as an
exception that arises on an officer’s “first-hand perception.” Texas v. Brown, 460 U.S. 730, 739 (1983); see
also Horton, 496 U.S. at 142 (applying the plain-view

22
exception because “it was immediately apparent to the
officer that [the seized items] constituted incriminating evidence” (emphasis added)). This is not a hard
concept: If the government wants to send an officer to
seize a person’s property regardless of what the officer
knows or perceives, then it must send the officer on
his way with a warrant authorizing the seizure. It
cannot send him on that mission and then justify it as
an “exception.”
III.

The Question Presented Is Important.

The conflict and error above go to the scope of one
of the most frequently recurring Fourth Amendment
exceptions. The plain-view doctrine surfaces virtually
any time officers exceed the scope of a warrant or, as
here, seize personal property without obtaining a warrant at all. Yet lower courts have “long deliberated
what ‘immediately apparent’ means.” United States v.
McLevain, 310 F.3d 434, 441 (6th Cir. 2002).
The intrusion here is grounded not just in privacy,
but in the deprivation of one’s “dominion over his . . .
property.” Horton, 496 U.S. at 133. This Court’s recent
jurisprudence has recognized the importance of the
proprietary interests underlying the Fourth Amendment. See United States v. Jones, 565 U.S. 400, 405
(2012) (“The text of the Fourth Amendment reflects its
close connection to property[.]”); Florida v. Jardines,
569 U.S. 1, 11 (2013). The Framers afforded express
and specific protection to a person’s “effects,” which
“was connected to the law prohibiting interferences
with another’s possession of personal property, including dispossession . . . and unwanted manipulation.”
Maureen E. Brady, The Lost “Effects” of the Fourth
Amendment: Giving Personal Property Due Protection,
125 Yale L.J. 946, 951 (2016). “[H]istory demonstrates

23
that effects were specifically included in the
constitutional text because of the harms to privacy
and dignity that could be incurred by their inspection”
as well as “the risk of mishandling or damage generally associated with interferences with personal property.” Id. at 987.11 Indeed, clothing, the particular
effect here, was afforded “special status” in the law
and was one of the specific categories of personal
property that Madison sought to protect in the Bill of
Rights. Id. at 978-88. Accordingly, in the lead up to
passing the Bill of Rights, “orators gave impassioned
speeches about” and “[a]uthors wrote about suffering
searches of the clothing they carried on journeys.” Id.
This Court, and lower courts that attribute meaning to the “immediately apparent” requirement, have
emphasized its critical purpose in preventing circumvention of the warrant requirement and thereby ensuring the plain-view exception does not license the
“general, exploratory rummaging in a person’s belongings” that the Framers “abhorred.” Coolidge, 403
U.S. at 467; McLernon, 746 F.2d at 1125. Relatedly,
this Court’s requirement “protects individuals against
the possibility that officers acting without a warrant—without the authority of the rule of law—will

Patrick Henry, for instance, “argued that a Bill of Rights was
necessary in part because the first Constitution failed to protect
personal property from prying eyes; under it, ‘[e]very thing the
most sacred [might] be searched and ransacked by the strong
hand of power.’” Brady, supra, at 990. Indeed, the violence associated with “trespassing on personal property” was so significant
that it “was often analogized to violence to real property, like the
breaking of a door to a home.” Id. at 991.
11

24
have time and scope to fabricate a plausible justification for an otherwise arbitrary and extensive search
or seizure.” McLernon, 746 F.2d at 1125.
IV.

The Court Should Grant This Case.

The application of the plain-view exception was
litigated and analyzed at all three levels in this case.
The plain-view exception—and the “immediately
apparent” requirement, in particular—was the sole,
dispositive basis for the decision below. The State has
never argued harmless error, nor disputed the court
of appeals’ conclusion that “[o]n this record, it could
not so argue.” Pet. App. 43a.
This record is uniquely good to resolve whether
“immediately apparent” requires an officer to perceive
at least something about the seized object because,
here, it is undisputed that Officer Breault did not and
could not. The State affirmatively conceded that when
Officer Breault seized the clothing it was in opaque
shopping bags and he could not have perceived anything additional. Pet. App. 58a-59a; see also Pet. App.
14a (Madsen, J., dissenting) (noting “Officer Breault
never testified to smelling any gasoline in the room or
near the plastic bags, nor did he state he observed any
blood on [Petitioner’s] clothing”; rather “the clothing
was not observable through the bags at all”); RP 146
(conceding Officer Breault seized Petitioner’s clothing
based on his supervising officer’s instruction, not his
own analysis).

25
CONCLUSION
The Court should grant certiorari in this case.
Respectfully submitted,
AMIR H. ALI
Counsel of Record
ANTHONY BALKISSOON
RODERICK & SOLANGE
MACARTHUR JUSTICE CENTER
777 6th Street NW, 11th Fl.
Washington, DC 20001
(202) 869-3434
amir.ali@macarthurjustice.org
KATHLEEN A. SHEA
WASHINGTON APPELLATE PROJECT
1511 Third Avenue, Suite 610
Seattle, Washington 98101
Counsel for Petitioner

OCTOBER 2019

APPENDIX

1a
APPENDIX A
IN THE SUPREME COURT OF THE
STATE OF WASHINGTON
STATE OF WASHINGTON,

)
)
Petitioner,
)
)
v.
)
)
DAVID ZACHERY MORGAN, )
)
Respondent.
)

No. 96017-8
En Banc
Filed May 16, 2019

GONZÁLEZ, J.—David Morgan was convicted by a
jury of first degree assault, attempted murder, and
arson. A bloodstain pattern analysis performed on his
clothing suggested he was in close proximity to the
victim when she suffered her injuries. We must decide
if the warrantless seizure of his clothing, which
officers reasonably concluded contained evidence, was
justified by an exception to the warrant requirement.
Based on our inconsistent articulation of the plain
view doctrine, the Court of Appeals found that the
State was required to establish inadvertence as a
separate element and reversed Morgan’s convictions.
We hold inadvertence is not a separate element
required under the plain view doctrine, reinstate
Morgan’s convictions, and remand to the Court of
Appeals for further proceedings in that court.

2a
FACTS
Morgan and his ex-wife, Brenda, 1 shared custody
of their daughter. About the time Brenda came to pick
up their daughter from Morgan’s house, Morgan’s
house was in flames. Firefighters found Morgan
kneeling in his driveway, hair singed and barely able
to speak. A firefighter repeatedly asked Morgan if
anyone was in the burning house. After a period of
silence, Morgan directed firefighters to the garage,
where Brenda was lying in a pool of blood. Brenda was
nonresponsive and badly injured, with multiple
lacerations on her head, fractures, and severe burns
on her upper body. Morgan and Brenda’s clothing
smelled of gasoline. Medics transported them to
separate hospitals, observing blood on Morgan’s
clothing.
A supervising officer promptly told Officer
Christopher Breault to “collect Morgan’s clothing
[from the hospital] and try to get an initial statement.”
Clerk’s Papers (CP) at 208. A crime scene technician
was also dispatched to collect Brenda’s clothing.
Officer Breault spoke with Morgan in his hospital
room for hours. Morgan disclosed that his daughter
was safe at Morgan’s mother’s home during the fire.
Morgan said he woke up to find his house on fire. He
said he then found Brenda in his house with her
sweater burning and tried to help her remove it. At
some point during their conversation, Officer Breault
noticed that hospital staff had put Morgan’s clothing
We use only her first name to avoid subjecting her to unwanted
publicity. No disrespect is intended.

1

3a
in “several plastic shopping like bags” and left his
clothing on the counter in Morgan’s hospital room.
1 Verbatim Report of Proceedings (Feb. 4, 2016) at
151, 154-55. The officer later testified that it “was
almost like [the clothing was] in like some sort of gift
bag; it looked like it had a hospital logo on it. And they
were just regular plastic bags that you could get at a
store.” Id. at 158. When the crime scene technician
arrived with arson bags designed to preserve
evidence, he and Officer Breault secured Morgan’s
clothing. Officer Breault also secured a utility knife
with dried blood on the handle from a counter near the
clothing. Hospital staff told Officer Breault they found
the knife in Morgan’s clothing.
Morgan was charged with attempted first degree
murder, first degree arson, and first degree assault.
He unsuccessfully moved to suppress the seized
clothing. 2 The trial court rejected the State’s plain
view argument because Officer Breault did not find it
inadvertently and he could not examine the clothing
without removing it from the plastic hospital bags.
Nonetheless, the trial court found that the removal of
Morgan’s clothing was justified by exigent
circumstances because “there are special bags that
have been designed and are available to put clothing
and other items into so as to preserve that particular
evidence.” Id. at 182.

The record contains no written findings or conclusions for the
CrR 3.6 hearing, but the trial court’s oral findings adequately
present the issues for appellate review. The trial court’s written
CrR 3.5 findings concern some of Officer Breault’s observations.
2

4a
The Court of Appeals found the State had not met
its burden of establishing exigent circumstances
because it had not shown applying for a warrant
would have resulted in a loss of evidence. It also
rejected the State’s claim that the plain view doctrine
applied because Officer Breault did not smell gasoline
or see blood through the plastic hospital bags or come
across it inadvertently. The State sought, and we
granted, review. State v. Morgan, 191 Wn.2d 1026,
428 P.3d 1170 (2018).
ANALYSIS
We are faced with a warrantless seizure of clothing
associated with criminal activity. Under the robust
privacy protections of our constitution, any state
intrusion into private affairs must be done under
“authority of law.” WASH. CONST. art. I, § 7. “Authority
of law” generally means a warrant or a wellestablished exception to the warrant requirement.
State v. Ladson, 138 Wn.2d 343, 350, 979 P.2d 833
(1999) (citing City of Seattle v. McCready, 123 Wn.2d
260, 273, 868 P.2d 134 (1994)). The plain view
doctrine and exigent circumstances are wellestablished exceptions. We hold the State failed to
establish that exigent circumstances justified the
intrusion, but it did justify the intrusion under the
plain view doctrine.
We agree with the Court of Appeals’ conclusion
that the State did not meet its burden to show that
exigent circumstances existed when Officer Breault
seized Morgan’s clothing. The State “must establish
the exception to the warrant requirement by clear and
convincing evidence.” State v. Garvin, 166 Wn.2d 242,

5a
250, 207 P.3d 1266 (2009) (citing State v. Smith, 115
Wn.2d 775, 789, 801 P.2d 975 (1990)). Critically, the
exigent circumstance “exception requires a compelling
need for officer action and circumstances that make
the time necessary to secure a warrant impractical.”
State v. Baird, 187 Wn.2d 210, 221, 386 P.3d 239
(2016) (plurality opinion) (citing Missouri v. McNeely,
569 U.S. 141, 149-50, 133 S. Ct. 1552, 185 L. Ed. 2d
696 (2013)). While the State had a legitimate concern
that trace evidence on Morgan’s clothing could be
contaminated by Morgan or hospital staff, the officers
exhibited no urgency in collecting the clothing, which
sat undisturbed on the counter for hours, including
when Morgan was alone with hospital staff.
We disagree, however, with the Court of Appeals’
application of the plain view doctrine. We have been
inconsistent in articulating the elements the State
must establish to justify a warrantless intrusion
under the plain view doctrine. We have said the plain
view doctrine applies “when the police (1) have a valid
justification to be in an otherwise protected area and
(2) are immediately able to realize the evidence they
see is associated with criminal activity.” State v.
Hatchie, 161 Wn.2d 390, 395, 166 P.3d 698 (2007)
(citing State v. Myers, 117 Wn.2d 332, 346, 815 P.2d
761 (1991)). But in some cases, we have also
articulated a third element, inadvertence. See, e.g.,
State v. Kull, 155 Wn.2d 80, 85, & n.4, 118 P.3d 307
(2005). 3
“The requirements for plain view are (1) a prior justification for
intrusion, (2) inadvertent discovery of incriminating evidence,
and (3) immediate knowledge by the officer that [they] had

3

6a
We take this opportunity to clarify the law.
Properly understood, there is no separate
inadvertence requirement in the plain view doctrine.
Officers are not restricted to seizing evidence solely
when they come across the evidence unintentionally
and inadvertently. As the United States Supreme
Court held, “[I]nadvertence is a characteristic of most
legitimate ‘plain-view’ seizures” but “it is not a
necessary condition.” Horton v. California, 496 U.S.
128, 130, 110 S. Ct. 2301, 110 L. Ed. 2d 112 (1990).
Officers are “entitled to keep [their] senses open to
the possibility of contraband, weapons, or evidence of
a crime.” State v. Lair, 95 Wn.2d 706, 719, 630 P.2d
427 (1981). 4 There is, however, an article I, section 7
requirement that a seizure not be based on pretext.
See, e.g., State v. Montague, 73 Wn.2d 381, 385, 438
P.2d 571 (1968). “Put simply, the law does not vest in
police the discretion to seize first and decipher a piece
of evidence’s incriminating nature later.” Katie
Farden, Recording a New Frontier in EvidenceGathering: Police Body-Worn Cameras and Privacy
Doctrines in Washington State, 40 SEATTLE U. L. REV.
271, 284-85 (2016). Thus, a plain view seizure is legal
when the police (1) have a valid justification to be in
evidence before [them].” Kull, 155 Wn.2d at 85 (citing State v.
Chrisman, 94 Wn.2d 711, 715, 619 P.2d 971 (1980), rev’d, 455
U.S. 1, 102 S. Ct. 812, 70 L. Ed. 2d 778 (1982)). The intrusion is
often the detention of a person or entry into a place, not the
seizure of the evidence itself.

The fact that the evidence in plain view is not contraband is of
no relevance. See, e.g., State v. Weller, 185 Wn. App. 913, 926,
344 P.3d 695 (2015) (seizing a board associated with an assault);
State v. Alger, 31 Wn. App. 244, 248, 640 P.2d 44 (1982) (seizing
a sleeping bag associated with a rape).
4

7a
an otherwise protected area, provided that they are
not there on a pretext, and (2) are immediately able to
realize the evidence they see is associated with
criminal activity.
Here, Morgan challenged the seizure of his
clothing. Morgan does not dispute that “the officers
had a lawful reason to be in the hospital room.” CP at
306-07. The State need show only that it was
immediately apparent that the clothing was
associated with criminal activity, which it aptly does.
Objects are immediately apparent under the plain
view doctrine “when, considering the surrounding
circumstances, the police can reasonably conclude”
that the subject evidence is associated with a crime.
State v. Hudson, 124 Wn.2d 107, 118, 874 P.2d 160
(1994) (citing Lair, 95 Wn.2d at 716). Certainty is not
necessary. 5
Morgan’s clothing was expected to be in the
hospital room and was detectable in the plastic
hospital bags on the counter. Officer Breault’s
supervising officer, having become aware of the
evidentiary value of Morgan’s clothing—including
that it smelled like gasoline—instructed Officer
Breault to collect it. Without examining the clothing,
Officer Breault reasonably concluded that Morgan’s
As the United States Supreme Court has noted, “[T]he use of
the phrase ‘immediately apparent’ was very likely an unhappy
choice of words, since it can be taken to imply that an unduly
high degree of certainty as to the incriminatory character of
evidence is necessary for application of the ‘plain view’ doctrine.”
Texas v. Brown, 460 U.S. 730, 741, 103 S. Ct. 1535, 75 L. Ed. 2d
502 (1983).
5

8a
clothing would have evidentiary value given the
conversation he had had with Morgan and
observations he made during that time, including a
knife with dried blood on the handle.
In light of the fire, Brenda and Morgan’s respective
injuries, the supervising officer’s knowledge, and
observations by Officer Breault and others, there were
more surrounding circumstances than necessary.
Officer Breault did not have to manipulate the bags to
know what they contained. 6 He reasonably concluded
that the clothing contained evidence associated with
suspected criminal activity. Nothing in this record
suggests any ambiguity; it is clear from context that
the plastic hospital bags contained the clothing
hospital staff removed in treating Morgan. Thus, the
State met its burden to show that Officer Breault
lawfully seized Morgan’s clothing under the plain
view doctrine.
CONCLUSION
While exigent circumstances did not exist, the
plain view doctrine permitted the seizure of Morgan’s
clothing. We reverse and remand to the Court of
Appeals for further proceedings in that court.
/s/ Gonzales, J.
Conversely, an officer’s suspicion that an expensive stereo in a
rundown house was stolen would not allow the officer to
manipulate it. Arizona v. Hicks, 480 U.S. 321, 326-27, 107 S. Ct.
1149, 94 L. Ed. 2d 347 (1987); accord State v. Murray, 84 Wn.2d
527, 536, 527 P.2d 1303 (1974). This case is different because
Officer Breault could reasonably conclude the clothing was
associated with a crime without having to see blood or smell
gasoline on the clothing through the plastic hospital bags.
6

9a
WE CONCUR:
/s/ Fairhurst, C.J.
/s/ Johnson, J.
/s/ Owens, J.
/s/ Stephens, J.
/s/ Wiggins, J.
/s/ Yu, J.

10a
No. 96017-8
MADSEN, J. (dissenting)—I disagree with the
majority that the seizure of David Morgan’s clothes
falls under the plain view exception to the search
warrant requirement. Under the plain view doctrine,
it must be immediately apparent to the seizing officer
that evidence he has discovered is associated with
criminal activity. The majority’s holding here divorces
the observations of the seizing officer from the seizure.
Instead, the majority says that if an officer has
information from a civilian witness who has observed
evidence that may indicate criminal activity when
that evidence was at a different location, a different
officer, who was not informed that evidence was
incriminating and who did not himself observe
anything incriminating, may seize that evidence in a
different location under the plain view doctrine—a
doctrine meant solely to allow law enforcement an
exception to obtain evidence without a warrant when
it is obvious to the seizing officer that the evidence is
associated with a crime. While the chain of events
here clearly supports issuance of a warrant, it
certainly does not fit within any of the “jealously and
carefully drawn exceptions” to the warrant
requirement.
In reaching this unprecedented application of the
plain view doctrine, the majority, sub silentio, imports
the “fellow officer” rule, which allows officers to make
warrantless arrests on the strength of collective
information. Whiteley v. Warden, Wyo. State
Penitentiary, 401 U.S. 560, 91 S. Ct. 1031, 28 L. Ed.
2d 306 (1971). This rule has never been imported into

11a
the “plain view” exception for obvious reasons—it
cannot be plain to the seizing officer that he is viewing
incriminating evidence unless he observes it and is
himself aware of the surrounding facts and
circumstances. Because the majority severely
undermines the search warrant requirement under
article I, section 7 of our constitution, which has long
been held to provide greater protections than the
Fourth Amendment, I respectfully dissent. WASH.
CONST. art. I, § 7; U.S. CONST. amend. IV.
Discussion
Our constitution provides that “[n]o person shall
be disturbed in his private affairs, or his home
invaded, without authority of law.” WASH. CONST. art.
I, § 7. Generally, an officer acts under authority of law
when executing a search and seizure under a valid
warrant. State v. Miles, 160 Wn.2d 236, 244, 156 P.3d
864 (2007). Warrants must be supported by probable
cause and describe the places to be searched or
persons or things to be seized with particularity. State
v. Perrone, 119 Wn.2d 538, 545, 834 P.2d 611 (1992).
This is, of course, to prevent a “‘general, exploratory
rummaging in a person’s belongings.’” Id. (internal
quotations omitted) (quoting Andresen v. Maryland,
427 U.S. 463, 480, 96 S. Ct. 2737, 49 L. Ed. 2d 627
(1976)). It is well settled that a warrantless search is
per se unreasonable unless it falls under one of the
“‘jealously and carefully drawn exceptions.’” State v.
Hatchie, 161 Wn.2d 390, 395, 166 P.3d 698 (2007)
(internal quotation marks omitted) (quoting State v.
Hendrickson, 129 Wn.2d 61, 70, 917 P.2d 563 (1996)).
The plain view doctrine is one of those exceptions.

12a
A plain view search is legal when officers (1) have
a valid justification to be in an otherwise protected
area and (2) are immediately able to recognize the
evidence they see is associated with criminal activity.
Id. (citing State v. Myers, 117 Wn.2d 332, 346, 815
P.2d 761 (1991)). An object is immediately apparent
under the second prong of a plain view search when,
“considering
the
surrounding
facts
and
circumstances, the police can reasonably conclude
they have evidence before them.” State v. Lair, 95
Wn.2d 706, 716, 630 P.2d 427 (1981). “In other words,
police have immediate knowledge if the officers have
a reasonable belief that evidence is present.” State v.
Munoz Garcia, 140 Wn. App. 609, 625, 166 P.3d 848
(2007) (emphasis added); see also State v. Kennedy,
107 Wn.2d 1, 10, 726 P.2d 445 (1986) (it is not an
unlawful search and seizure when an officer,
observing from a vantage point where he can legally
be present, immediately recognizes an object as
incriminating evidence). Probable cause is required to
satisfy the immediate recognition prong of the plain
view doctrine. State v. Hudson, 124 Wn.2d 107, 118,
874 P.2d 160 (1994) (citing Arizona v. Hicks, 480 U.S.
321, 326, 107 S. Ct. 1149, 94 L. Ed. 2d 347 (1987)).
In this case, the officer who seized the clothing,
Officer Christopher Breault, was initially dispatched
to Morgan’s hospital room to “give medical updates to
Sergeant [Curtis] Zatylny” and to find more
information about a possible missing child. 1
Verbatim Report of Proceedings (Feb. 4, 2016) at 115.
At some point, Sergeant Zatylny ordered Officer
Breault to seize Morgan’s clothes as evidence. After
going in and out of Morgan’s hospital room, Officer

13a
Breault noticed Morgan’s clothing had been placed “in
several plastic bags that the hospital had provided
and then placed on the back counter of the … hospital
room.” Id. at 151. The bags had a hospital logo on it
but otherwise “were just regular plastic bags that you
could get at a store.” Id. at 158.
The first step in our analysis must be a recognition
that Morgan’s clothing is a private affair and that he
has an expectation that his privacy in the clothing is
not disturbed without a warrant. Next, it is important
to recognize that clothing is not inherently
incriminating. Here, Officer Breault believed the bags
he seized contained Morgan’s clothing, but he did not
observe anything about the clothing that could be
described as incriminating. To justify the seizure, the
State cites two cases it argues support the position
that “surrounding facts and circumstances” in the
context of plain view means any and all information
that any police officer may know related to the
investigation. See Suppl. Br. of Pet’r at 10-11. While
the majority agrees with this broad reading of a
“jealously and carefully drawn exception,” those cases
do not actually broaden the narrowly drawn plain
view exception in the way the majority attempts to do
here. In State v. Alger, a sleeping bag was seized
under the plain view doctrine as evidence of statutory
rape. 31 Wn. App. 244, 640 P.2d 44 (1982). But the
officers who seized the evidence were themselves
“acquainted with the details of the crime.” Id. at
247. They were informed that sexual relations
between the defendant and the victim occurred on a
sleeping bag while she was on her menstrual cycle. Id.
at 246. The sleeping bag was seized after it was clearly

14a
visible from their vantage point near the front door,
based on the surrounding facts and circumstances
known to the officers at the time those officers seized
the evidence. Similarly, in State v. Weller, officers
were called in to assist on a wellness check after a
Child Protective Services investigator interviewed the
defendant’s children for possible abuse. 185 Wn. App.
913, 344 P.3d 695 (2015). The officers there
interviewed two of the children who described being
beaten with a board. Id. at 919. When the officers
moved to the garage for greater privacy, the officers
discovered a board that the children later indicated
was used for their beatings. Id. The board—which the
officers observed had a long groove in it and had
discoloration that appeared to be dried blood—was
seized by the officers. In both Alger and Weller, the
seizing officer was aware of the “surrounding facts and
circumstances” that justified the warrantless seizure
of evidence.
Here, that is not the case. Officer Breault never
testified to smelling any gasoline in the room or near
the plastic bags, nor did he state he observed any
blood on Morgan’s clothing through the plastic bags. 7
Indeed, the officer’s description of the plastic bags
suggests the clothing was not observable through the
bags at all. Moreover, Officer Breault was not there to
investigate any possible crime committed by Morgan.
His only purpose for being there was to observe
Morgan and to determine the location of the child who
At most, Officer Breault noticed and later seized a utility knife
with some dried blood near the bag of clothing. But Morgan does
not dispute the seizure of the utility knife.
7

15a
may have had a connection to the events. While
firefighters and paramedics observed that the clothes
belonging to Morgan’s ex-wife, Brenda, smelled like
gasoline in the ambulance, as did Morgan’s clothing,
all of that information was from a non-lawenforcement source and was relayed only to Sergeant
Zatylny. Sergeant Zatylny himself did not notice any
evidence of gasoline or other incriminating evidence
when he responded to the residential fire. Crucially,
none of the information regarding Morgan’s or
Brenda’s clothing was relayed to Officer Breault. To
discover that evidence, Officer Breault would have
had to manipulate the bag’s contents to determine
whether the clothing actually contained incriminating
evidence. But doing so would undoubtedly be an
unlawful seizure. See State v. Johnson, 104 Wn. App.
489, 501-02, 17 P.3d 3 (2001) (discussing Hicks, 480
U.S. at 328-29 (manipulating stereo equipment that
an officer reasonably suspects may be incriminating
evidence to determine the serial number, which would
give the officer probable cause, constitutes an
unlawful search under the plain view doctrine)).
While we have generally recognized that “a
policeman in the course of a valid search is entitled to
keep his senses open to the possibility of … evidence
of a crime,” Lair, 95 Wn.2d at 719, we have never
suggested knowledge obtained by one officer may be
imputed to the seizing officer, who is completely
unaware of the facts and circumstances leading up to
the seizure based on “plain view.” Indeed, we have
recognized only that a warrantless arrest, not a
warrantless search and seizure, may be executed
based on the cumulative knowledge possessed by a

16a
team of officers under the “fellow officer” rule. See
State v. Bravo Ortega, 177 Wn.2d 116, 297 P.3d 57
(2013). But to fall under the “fellow officer” rule, the
information supplied must be from a law enforcement
agency. See State v. Gaddy, 152 Wn.2d 64, 70-71, 93
P.3d 872 (2004). Here, the information obtained by the
police came from first responders on the scene who
were non-law-enforcement sources. Consequently, the
officer’s warrantless seizure could not fall under the
fellow officer rule even if it were applied here.
In essence, the majority’s holding that Sergeant
Zatylny directing Officer Breault to collect Morgan’s
clothing falls under the plain view exception is really
an “ends justify the means” argument since Officer
Breault saw nothing to justify a plain view
seizure. Importantly, Sergeant Zatylny was not
present at Morgan’s hospital room to perform a plain
view seizure of the clothing. Sergeant Zatylny had
more than enough information to obtain a warrant to
collect Morgan’s clothing. There was no concern that
obtaining a warrant here would “be a needless
inconvenience [or] dangerous—to the evidence or to
the police themselves.” Coolidge v. New Hampshire,
403 U.S. 443, 468, 91 S. Ct. 2022, 29 L. Ed. 2d 564
(1971) (plurality portion). Given the facts and
circumstances of the investigation, a telephonic
warrant would have been easily obtainable, should
have been obtained by police here, and, more
importantly, is what our constitution required.
Conclusion
Clothing, without more, is not inherently
incriminating evidence. The officer observing and

17a
seizing evidence under plain view, must be aware of
the surrounding facts and circumstances to have
probable cause justifying the warrantless seizure.
Because the officer here was directed only to observe,
gain information about a missing child, and, later,
collect Morgan’s clothing as evidence without knowing
anything about a criminal investigation, the plain
view exception to a warrant is not met. The majority’s
holding unnecessarily broadens our plain view
doctrine and undermines the search warrant
requirement under article I, section 7 of the
Washington State Constitution. Probable cause to
justify the warrantless seizure by the seizing officer
was not met, and as such, I respectfully dissent.
/s/ Madsen, J.
/s/ Gordon McCloud, J.

18a
APPENDIX B
IN THE COURT OF APPEALS OF THE
STATE OF WASHINGTON
STATE OF WASHINGTON,

)
)
Respondent,
)
)
v.
)
)
DAVID ZACHERY MORGAN, )
)
Appellant.
)

No. 75072-1-I
DIVISION ONE
UNPUBLISHED
Filed May 29, 2018

Cox, J.—David Morgan appeals his convictions for
one count of first degree attempted murder, first
degree arson, and first degree assault, all crimes of
domestic violence. The trial court did not abuse its
discretion in declining to dismiss these charges
following Morgan’s mistrial motion. And double
jeopardy did not bar retrial of these charges. But
police authorities seized Morgan’s clothing from bags
inside his hospital room without authority of law.
The State failed to prove by clear and convincing
evidence that exigent circumstances existed. That
clothing was later admitted into evidence at trial.
Accordingly, we reverse and remand for a new trial.
David Morgan and Brenda Welch were divorced
and shared custody of their eight-year old daughter,
K. Morgan spent three weekends per month with K.
Welch would pick her up at Morgan’s house on
Sunday evenings.

19a
On Saturday night, November 15, 2014, Morgan
left K. with his mother. Morgan claims to have been
sick. He was supposed to pick up K. before Welch
arrived at his home on Sunday evening. But he told
officers who interviewed him that he fell asleep.
Welch left her house around 6:25 p.m. on Sunday,
November 16, 2014, to pick up K. from Morgan’s.
Around 7:00 p.m., a neighbor saw that Morgan’s
house was on fire.
Firefighters arrived within
minutes and found Morgan on the ground, in the
driveway. A lieutenant, the first firefighter to arrive,
repeatedly asked Morgan if anyone else was in the
house. Morgan mumbled the word “garage,” and
handed the garage door opener to the lieutenant.
The door opener did not work because a bin was
blocking the door. After getting inside, firefighters
found Welch on her back, in a pool of blood. She had
severe burns on her upper body. She also smelled
strongly of gasoline. She was taken to Harborview
Medical Center for observation and treatment.
Welch had a skull fracture with a pattern of head
lacerations that resembled a garden tool found by the
front door of Morgan’s home. She suffered permanent
injuries. She did not remember how she got hurt.
Morgan had blood on his hands and clothing but
no lacerations. He had a small wound on his forehead
and his hair was singed. He was taken to Swedish
Edmonds Hospital for observation and treatment.
Officer Christopher Breault of the Lynnwood
Police Department went to the hospital, where
Morgan was in a room being treated for smoke
inhalation. He asked Morgan what had occurred that

20a
evening. Morgan spoke freely with the officer
regarding his memory of events.
Later that same evening, two other police officials
arrived at the hospital room to interview Morgan.
During this interview, Morgan declined to give a
recorded statement.
Sometime during this
interview, police seized his clothing, which was
stored in several plastic bags located on the back
counter of his hospital room.
Police arrested Morgan the next day, upon his
release from the hospital.
The State charged him with attempted first
degree murder, first degree assault, and first degree
arson. Each charge included an allegation that it
constituted a crime of domestic violence.
On the fourth day of Morgan’s first jury trial, the
trial court granted a mistrial due to prosecutorial
misconduct. At the second trial that followed a short
time later, the jury convicted Morgan on all counts.
The trial court sentenced him accordingly.
Morgan appeals.
DISMISSAL UNDER CrR 8.3(b) AND CrR
4.7(h)(7)(i)
Morgan first claims that he was entitled to
dismissal of the charges with prejudice under CrR
8.3(b) and CrR 4.7(h)(7)(i) due to the prosecution’s
allegedly outrageous and prejudicial conduct. The
court did not abuse its discretion in declining to
dismiss the charges with prejudice on these grounds.
CrR 8.3(b) authorizes dismissal “due to arbitrary
action or governmental misconduct when there has

21a
been prejudice to the rights of the accused which
materially affect the accused’s right to a fair trial.”
CrR 4.7(h)(7)(i) authorizes the trial court to impose
sanctions, including dismissal for discovery
violations.
A trial court will only order dismissal of charges
under CrR 8.3(b) if the defendant shows by a
preponderance of evidence, arbitrary action or
government misconduct and prejudice affecting the
defendant’s right to a fair trial. 1 Likewise, dismissal
pursuant to CrR 4.7(h)(7)(i) is an extraordinary
remedy that is only available if a defendant can show
actual prejudice. 2
This court reviews the trial court’s decision for
manifest abuse of discretion. 3 A trial court abuses
its discretion if its decision is manifestly
unreasonable or based on untenable grounds. 4
Here the prosecutor elicited an opinion from an
expert witness that had not been disclosed in pretrial
discovery. The State properly concedes that this
constitutes “government misconduct.” 5
However,
Morgan still bears the burden to show that his right
to a fair trial was prejudiced in a manner that could
not be remedied by a new trial. 6 But the trial court
specifically determined that Morgan could be given a
1

State v. Puapuaga, 164 Wn.2d 515, 520, 192 P.3d 360 (2008).

See State v. Krenik, 156 Wn. App. 314, 320, 231 P.3d 252
(2010).

2

3
4
5
6

Puapuaga, 164 Wn.2d at 520-21; Krenik, 156 Wn. App. at 320.
State v. Michielli, 132 Wn.2d 229, 240, 937 P.2d 587 (1997).
See id. at 239-40.

State v. Whitney, 96 Wn.2d 578, 580, 637 P.2d 956 (1981).

22a
fair trial. And he fails to point to anything in the
record of the second trial to show he did not get a fair
trial.
Instead, he argues that he was prejudiced by the
loss of the jury selected in his first trial, especially
since the media coverage of his case made it
particularly difficult for him to obtain a second
unbiased jury. But he fails to point to anything in
this record to show why the original jury selected
would have been any fairer than the jury selected at
his second trial.
Moreover, while Morgan claims that he was
subject to adverse pretrial publicity, the trial court
disagreed. Morgan fails to present anything other
than speculation to show that the trial court was
wrong in its assessment of this issue.
Morgan also argues that the mistrial, followed by
retrial, worked to the State’s benefit. We see no
persuasive explanation why, given the eleven-day
delay between termination of his first trial and
commencement of his second trial.
Morgan relies on State v. Martinez, as support for
his contention that dismissal was appropriate due to
the prosecution’s allegedly “outrageous” conduct. 7
His reliance is misplaced.
In Martinez, the prosecution kept exculpatory
evidence from Alexander Martinez until the middle
of trial. 8 The exculpatory evidence was revealed

7
8

121 Wn. App. 21, 86 P.3d 1210 (2004).
Id. at 32-35.

23a
right before the State rested. 9 The jury voted 10 to 2
to acquit, and the trial court declared a mistrial. 10
When the State moved to refile the charges,
Martinez moved to dismiss based on double jeopardy
The trial court agreed with
and CrR 8.3(b). 11
Martinez, dismissed the charges, and the State
appealed. 12
This court affirmed. We noted that “dismissal
under CrR 8.3(b) is an extraordinary remedy that is
improper except in truly egregious cases of
mismanagement or misconduct that materially
prejudice the rights of the accused.” 13 We then held
that the prosecutor’s withholding of exculpatory
evidence until the middle of trial was “so repugnant
to principles of fundamental fairness” that the trial
court did not abuse its discretion in dismissing the
charges. 14
Here, the undisclosed evidence was not
exculpatory. Rather, it supported the State’s theory
that Morgan was guilty of arson. It is true that the
trial court found that the prosecution intentionally
elicited an opinion that should have been disclosed
earlier, but Morgan has failed to cite to any authority
equating such conduct with a failure to produce
exculpatory material or with other outrageous
behavior. Moreover, dismissal pursuant to CrR 8.3(b)
9

Id. at 32-33.

10

Id. at 24, 29.

11

Id.

12

Id.

13
14

Id. at 30.

Id. at 35-36

24a
is a discretionary decision. Thus, affirming in this
case is consistent with this court’s decision to affirm
in Martinez. In both cases, this court defers to the
trial court’s exercise of discretion.
Finally, Morgan argues in his opening brief that
he was prejudiced because the mistrial forced him to
waive his speedy trial rights. But he concedes in his
reply brief that this argument was in error.
Specifically, the last day for trial pursuant to CrR 3.3
was Monday, March 21 and trial began on that day.
We need not further address this argument.
Morgan fails to show that he either could not
receive a fair trial, or that he suffered actual
prejudice that could not be remedied by retrial.
Accordingly, the trial court did not abuse it discretion
by refusing to dismiss the charges with prejudice.
DOUBLE JEOPARDY
Morgan next argues that double jeopardy
precluded a second trial, notwithstanding that he
sought the mistrial that the court granted. He
further claims that the prosecutor acted in bad faith
by intentionally and repeatedly eliciting highly
prejudicial testimony from the State’s expert in
violation of the trial court’s discovery order. We
disagree.
Both the federal and Washington constitutions
protect persons from being put into jeopardy twice
for the same offense. 15 Jeopardy attaches once a jury
is sworn in. 16 In general, double jeopardy principles
15
16

State v. Turner, 169 Wn.2d 448, 454, 238 P.3d 461 (2010).

State v. Corrado, 81 Wn. App. 640, 646, 915 P.2d 1121 (1996).

25a
do not preclude retrial if the mistrial was granted
upon the defendant’s motion. 17 This is true even if
the defendant sought a mistrial due to prosecutorial
error. 18
Federal cases recognize one exception to the usual
rule. If the prosecutor intended to goad the defense
into seeking a mistrial, re-trial is precluded. 19 Other
bad faith actions by the prosecutor are not enough. 20
Washington courts have recognized the possibility
of a slightly broader exception based on the Oregon
Supreme Court’s interpretation of its state
constitution. 21 Under the “Oregon standard,” double
jeopardy precludes retrial if the prosecutor “knows
that the conduct is improper and prejudicial and
either intends or is indifferent to the resulting
mistrial or reversal.” 22 The difference between the
federal and Oregon standards is quite narrow with
the latter including cases where the prosecutor
“harass(es] the defendant with what the prosecutor
knows to be prejudicial error.” 23 Washington courts

17 Oregon v. Kennedy, 456 U.S. 667, 673, 102 S. Ct. 2083, 72 L.
Ed. 2d 416(1982); State v. Hopson, 113 Wn.2d 273, 280, 778
P.2d 1014 (1989).
18
19
20

Hopson, 113 Wn.2d at 280.
Kennedy, 456 U.S. at 676.
Id. at 675-76.

Hopson, 113 Wn.2d at 280 (citing State v. Kennedy, 295 Or.
260, 276, 666 P.2d 1316, 1326 (1983)).

21

22
23

Id. (quoting Kennedy, 295 Or. at 276).
Id. (quoting Kennedy, 295 Or. at 272).

26a
have not yet decided whether this broader rule
applies under the Washington constitution. 24
Whether the prosecutor intended to goad the
defendant into seeking a mistrial is an issue of fact
for the trial court. 25 Likewise, a finding whether the
prosecutor intended or was indifferent to the
possibility of a mistrial is factual, and “[t]he trial
court may infer its finding from objective facts and
circumstances.” 26
We will not disturb the trial court’s factual
findings that are “supported by substantial
evidence.” 27 We review de novo any questions of
law. 28
Snohomish County Deputy Fire Marshall Edwin
Hardesty investigated to determine the cause of the
fire. He submitted a report characterizing the cause
as “undetermined,” and stating that he “could not
rule out it was an incendiary fire” and he could rule
out all natural and accidental causes. The report was
provided to the defense.
Morgan moved to compel pursuant to CrR 4.7(a),
asking the State to provide a summary of the
opinions of its expert witnesses. The trial court
granted the motion, and the State produced a
memorandum summarizing Hardesty’s opinion and
stating that he was expected to testify that the exact
Id. at 277-78; State v. Lewis, 78 Wn. App. 739, 743, 898 P.2d
874 (1995).
24

25

Lewis, 78 Wn. App. at 744.

26

Id.

27

Id.

28

State v. Jackman, 156 Wn.2d 736, 746, 132 P.3d 136 (2006).

27a
cause of the fire was undetermined. In the same
memorandum, the State provided that Mikael
Makela, the fire investigator assisting Hardesty,
signed off on Hardesty’s report, and “it is expected
that he would join in the ultimate conclusions listed
above if called to testify.”
At the first trial, Hardesty testified that, from the
nature of the fire, he concluded that some type of fuel
or accelerant had been added to the room to sustain
the fire. Based on Welch’s condition and the gasoline
on her clothing, Hardesty testified that he could not
rule out that the fire was intentionally set. He could
eliminate all accidental causes in the room of fire
origin and could not rule out an intentionally set fire.
He again classified the cause of the fire as
“undetermined.”
On
cross-examination,
Morgan’s
counsel
questioned Hardesty about NFPA 921, a peerreviewed manual that rejects a procedure called
“negative corpus” in which the investigator uses a
process of elimination to conclude the fire was
intentionally set. Hardesty denied using that
procedure.
The State later called Makela who testified that
he agreed with Hardesty’s conclusions. Towards the
end of his testimony, the following exchange
occurred:
Makela: [Reading from the NFPA that] “An
incendiary fire is a fire that is deliberately set
with the intent to cause the fire to occur in an
area where the fire should not be.

28a
Prosecutor: And do you believe that’s what
occurred in this case?
M: Yes, Ido.
P: (Does the NFPA] reiterate anything about
ignitable liquid?
M. It does.
P. What does it say?
M: The presence of ignitable liquids may
indicate that a fire was incendiary, especially
when [they] are found in areas in which they
are not normally expected.
P: Did you find that in this particular case?
M. Yes.
P: And the last paragraph?
M: Absence of personal items prior to the fire,
the absence of items that are personal,
irreplaceable, or difficult items to replace
should be investigated.” Examples include . . .
photographs, awards, . . . art, pets [and] the
removal of important documents, e.g., fire
insurance policies, business records, tax
records, prior to the fire, should be
investigated and explained.
P: In consideration of all of that, of the
standards of what you both eliminated and
what you found, do you have an opinion as to
whether this is an intentionally set fire?
M: Yes, I do. P: Which is?

29a
M: Yes. It is an incendiary fire. [ 29]
On cross-examination, Makela testified that he
had told the State of his opinion a few months before
trial and had spoken with the prosecutor about his
conclusion “[m]aybe three of four times.” 30 He did
not provide the State with a written report of his
conclusions.
Morgan moved for a mistrial because the
prosecution had failed to disclose in discovery
Makela’s opinion that the fire was intentionally set.
The prosecutor initially claimed that Makela’s
testimony was consistent with Hardesty’s. The trial
court disagreed, noting that Makela had testified
that his professional opinion was that it was an
intentionally set fire.
The prosecutor then claimed that he believed he
had provided materials to the defense about Makela’s
opinions but would have to check. After a recess, the
prosecutor corrected his earlier statement and
informed the court that he had not intended to elicit
this information on direct examination. The trial
court determined that failure to disclose Makela’s
opinion was a violation of the court’s discovery order
and declared a mistrial.
Morgan then moved to dismiss the charges. The
prosecutor responded that he had elicited far more
than he intended and acknowledged that his
questioning was “sloppy, inartful [sic], and
unfocused.”
29
30

Report of Proceedings Vol. 5 (February 29, 2016) at 950-51.
Id. at 951-52.

30a
The trial court disagreed with the prosecutor’s
version of the facts in its response. The trial court
determined that the prosecutor had asked questions
designed to elicit Makela’s opinion that the fire was
incendiary and that the “five minutes or so of
testimony that was elicited cannot be attributed to a
mistake.” Nonetheless, it did not believe that the
prosecutor’s misconduct warranted dismissal but
reserved the right to impose sanctions at the
conclusion of the case. At the end of the second trial,
the court determined that the mistrial was an
appropriate and sufficient sanction and imposed no
others.
Morgan argues that the second trial violated his
double jeopardy rights because his motion for
mistrial should not be considered as consent. He is
wrong.
Morgan relies on State v. Rich, as support for this
argument that he did not consent because he was
presented with two equally unacceptable choices—to
allow a mistrial or to proceed with a jury that was
tainted by the prosecutor’s misconduct. 31He is wrong
because John Rich objected to the trial court’s
decision to grant a mistrial. 32 If Morgan was correct,
no defendant seeking a mistrial due to prosecutorial
error could ever be seen as consenting because he or
she always faces a choice between giving up the first
jury or continuing with a trial tainted by
prosecutorial error. 33
31
32
33

63 Wn. App. 743, 821 P.2d 1269 (1992).
Id. at 745-46, 747.

See U.S. v. Dinitz, 424 U.S. 600, 609, 96 S. Ct. 1075, 47 L. Ed.

31a
Morgan also argues that retrial should have been
barred because the prosecutor acted in bad faith to
goad him into requesting a mistrial or to prejudice
his prospects for acquittal. He also argues the
opposite—that the prosecutor “took a risk by eliciting
testimony he knew he had not provided in discovery,
presuming that the evidence would simply be
stricken if defense counsel objected.” He argues that
the prosecutor’s improper questioning, coupled with
his subsequent false assertions, first that he had
provided the information in discovery and then that
he had asked the questions by accident, shows bad
faith and thus the trial court erred in refusing to
dismiss the charges. We disagree.
Under either double jeopardy standard, the more
narrow one articulated by the United States
Supreme Court in Kennedy or the broader Oregon
standard recognized in Hopson, Morgan was not
entitled to dismissal. Both require a “rare and
compelling” set of facts before dismissal is
warranted. 34
The double jeopardy concerns presented in this
case are very similar to those addressed by this court
in State v. Lewis. 35 Andre Lewis was charged with
second degree murder, and at his first trial the
prosecutor repeatedly asked a witness about whether
someone working for the defense had tried to get him
to change his story. 36 Lewis objected three times and
2d 267 (1976).
34
35
36

Hopson, 113 Wn.2d at 283.

78 Wn. App. 739, 898 P.2d 874 (1995).
Id. at 741-42.

32a
each time the trial court sustained the objection. 37
The trial court granted a mistrial concluding that the
prosecution “had introduced irrelevant, prejudicial
evidence that denied Lewis a fair trial.” 38
This court affirmed the trial court’s refusal to
dismiss the charges based on double jeopardy. 39
Turning first to the federal standard, the court
observed that “the critical factor is the trial court’s
perception that the State’s case is going badly and
the prosecutor was looking for an excuse to start
over.” 40
Here, there is no evidence that the prosecutor
wanted to start over. To the contrary, the trial court
specifically found that prior to the improper
testimony, the State’s case was strong.
Turning to the slightly broader Oregon standard,
the court in Lewis, observed that retrial was barred
if the deliberate misconduct of the prosecutor created
a risk of mistrial, perhaps to avoid the serious
danger of acquittal, perhaps to harass the defense, or
maybe just to retaliate against defense counsel in
some way. This court agreed with the trial court that
the prosecutor’s misconduct was serious, its
questions prejudicial, and that the prosecutor had
wrongfully persisted despite three sustained
objections. Nonetheless, this court deferred to the
trial court’s “first hand observations and sound

37
38
39
40

Id. at 742.
Id. at 742.

Id. at 745-46.
Id. at 743

33a
judgment” and its determination that the
prosecutor’s conduct was insufficient to bar retrial.
In this case, as in Lewis, the trial court did not
find that the prosecutor either intended a mistrial or
was indifferent to the possibility. It also recognized
that it had the discretion to “weigh the balance of
justice,” and it determined that dismissal would not
support the ends of justice.
As in Lewis, we conclude that the trial court did
not abuse its discretion in determining that retrial
was not barred by double jeopardy.
SEIZURE OF MORGAN’S CLOTHING
Exigent Circumstances
Morgan argues that the trial court improperly
failed to suppress the evidence obtained from his
clothing because the clothing was illegally seized
without a warrant. He further argues that the
subsequent warrant to analyze bloodstain patterns
was unlawful because it was obtained based on
evidence from the unlawfully seized clothing. We
agree with both arguments.
As a general rule, a warrantless seizure is a per
se violation of article 1, section 7 of the Washington
Constitution. 41 There are a few “carefully drawn
exceptions to the warrant requirement” including
exigent circumstances. 42

41

State v. Tibbles, 169 Wn.2d 364, 370, 236 P.3d 885 (2010).

State v. Garvin, 166 Wn.2d 242, 249, 207 P.3d 1266 (2009)
(quoting State v. Duncan, 146 Wn.2d 166, 171, 43 P.3d 513
(2002)).
42

34a
“The exigent circumstances exception to the
warrant requirement applies where ‘obtaining a
warrant is not practical because the delay inherent
in securing a warrant would compromise officer
safety, facilitate escape or permit the destruction of
evidence.”‘ 43 The supreme court has identified five
circumstances from federal cases that “could be
termed ‘exigent’” circumstances. 44 They include “(1)
hot pursuit; (2) fleeing suspect; (3) danger to
arresting officer or to the public; (4) mobility of the
vehicle; and (5) mobility or destruction of the
evidence.” 45 However, merely because one of these
circumstances exists does not mean that exigent
circumstances justify a warrantless search. 46 There
must be a true emergency and a warrantless search
is unlawful if other, less intrusive, options were
available. 47
In determining whether exigent circumstances
exist, the court looks to the totality of the
circumstances. 48 Six nonexclusive factors that may
aid in determining whether exigent circumstances
exist are:

Tibbles, 169 Wn.2d at 370 (quoting State v. Smith, 165 Wn.2d
511, 517, 199 P.3d 386 (2009)).
43

State v. Counts, 99 Wn.2d 54, 60, 659 P.2d 1087 (1983)
(emphasis added).
44

Id. (citations omitted); see also State v. Terrovona, 105 Wn.2d
632, 644, 716 P.2d 295 (1986).
45

46 E.g., Tibbles, 169 Wn.2d at 370; State v. Patterson, 112 Wn.2d
731, 735, 774 P.2d 10 (1989).
47
48

State v. Cruz, 195 Wn. App. 120, 126-27, 380 P.3d 599 (2016).
Smith, 165 Wn.2d at 518.

35a
‘(1) the gravity or violent nature of the offense
with which the suspect is to be charged; (2)
whether the suspect is reasonably believed to
be armed; (3) whether there is reasonably
trustworthy information that the suspect is
guilty; (4) there is strong reason to believe that
the suspect is on the premises; (5) a likelihood
that the suspect will escape if not swiftly
apprehended; and (6) the entry [can be] made
peaceably.’49
When reviewing the trial court’s denial of a
motion to suppress, we review challenged findings of
fact for substantial evidence. 50 We review de novo
whether exigent circumstances exist to justify the
warrantless seizure. 51
“The State bears a heavy burden” and “must
establish the exception to the warrant requirement
by clear and convincing evidence.” 52
The issue before us is whether, under article 1,
section 7 of the Washington Constitution, the
warrantless seizure of Morgan’s clothing from the
storage bags in his hospital room-a per se violation of
the constitution-was done “under authority of law.”
Specifically, whether the State met its heavy burden
to show that either the “exigent circumstances” or
“plain view” exceptions applies.

49

State v. Cardenas, 146 Wn.2d 400, 406, 47 P.3d 127 (2002).

50

Garvin, 166 Wn.2d at 249.

51 City of Seattle v. Pearson, 192 Wn. App. 802, 811-12, 369 P.3d
194 (2016).
52

Garvin, 166 Wn.2d at 250.

36a
Here, CrR 3.5 and 3.6 hearings on Morgan’s
motions to suppress were held successively on
February 4, 2016. There are written findings of fact
and conclusions of law for the CrR 3.5 hearing. For
unexplained reasons, the record contains no written
findings or conclusions for the CrR 3.6 hearing that
is now at issue.
Nevertheless, in a careful review of the record, we
consider both the evidence presented at the hearing
and the trial court’s rationale for its decision to deny
Morgan’s motion to suppress the clothing evidence.
We first note that the trial court considered the
written statements of Officer Breault and Officer
Brad Reorda that were attached to Morgan’s motion
to suppress. It also considered the written statement
of Sergeant Curtis Zatylny that was introduced into
evidence at the hearing. The trial court found these
statements insufficient to justify the seizure of the
clothing. 53 The State does not contest this finding on
appeal.
Thereafter, the State presented the testimony of
Officer Breault, the only person to testify at the CrR
3.6 hearing. He was one of several officers who had
testified at the CrR 3.5 hearing that immediately
preceded the CrR 3.6 hearing.
During the CrR 3.6 hearing, Officer Breault
testified that he arrived at Swedish Edmonds
Hospital around 8:45 p.m. to obtain information from
Morgan and provide medical updates to police
authorities. 54 He spent a couple of hours with
53
54

Report of Proceedings Vol. 1 {February 4, 2016) at 149-50.
Id. at 158.

37a
Morgan, in his hospital room, without noticing
Morgan’s bagged clothing. 55
Two detectives arrived to interview Morgan after
the officer had been with him for a couple of hours.
Officer Breault first noticed Morgan’s bagged
clothing when he left the room following the arrival
of the detectives. 56 According to this officer, the
clothing was “in several plastic bags that the hospital
had provided and then placed on the back counter” of
Morgan’s hospital room. 57
The record is unclear on who directed the seizure
of Morgan’s clothing. The officer testified that it
might have been the two detectives or some other
police official not present in the hospital room. What
is clear is that he did not seize the evidence on his
own.
He also testified that neither he nor anyone else
sought Morgan’s permission to seize the clothing.
Moreover, he testified that neither he nor anyone
else sought a telephonic warrant. 58
Nevertheless, Officer Breault testified that, when
dealing with clothing that may contain bodily fluids
or gasoline, police procedure is to separate these
items and package them properly depending on the
type of evidence.
He further testified that
substances such as gasoline and chemicals rapidly

55

Id. at 159.

56

Id.

57
58

Id. at 151.
Id. at 162.

38a
dissipate and such evidence needs to be packaged
quickly and efficiently to preserve it for later testing.
On cross-examination, he testified that he had no
knowledge of the timing of dissipation for anything
that might have been on Morgan’s clothing. 59 He
further testified that he could not testify about what
chemicals might have been on the clothing. 60 He also
testified that his incident report made no mention of
why he assisted in packaging the clothing into the
special arson bags that another officer brought to the
scene. 61
A few months after Morgan’s clothing was
packed, sealed, and taken to the crime lab, one of the
two detectives that interviewed Morgan at the
hospital on the night of the fire visually inspected the
clothes and noticed blood spatter on Morgan’s jeans
and shirt. The clothing was sent to a forensic
scientist with the Washington State Patrol Crime
Lab, who performed a bloodstain pattern analysis.
Morgan sought to suppress both the clothing and
the bloodstain pattern analysis. The trial court
determined that the State had met its burden to
establish exigent circumstances justifying the seizure
of Morgan’s clothes. However, it also determined that
any testing for purposes other than the presence of
accelerants
was
not
justified
by
exigent
circumstances and thus required a warrant. The trial
court then suppressed the results of the forensic

59

Id. at 161.

60

Id.

61

Id. at 163.

39a
scientist’s bloodstain pattern analysis
exigent circumstances no longer applied.

because

Morgan moved to reconsider the denial of the
suppression motion based on the absence of any
showing by the State that it was impractical to get a
warrant to seize the clothing. 62 But the trial court
denied the motion. It reiterated its determination
that Officer Breault had to act quickly once he saw
the bag of clothes to preserve any accelerant and
avoid cross contamination.
Relying on this court’s decision in City of Seattle
v. Pearson, Morgan argues that the warrantless
seizure of his clothing was not justified by exigent
circumstances. 63 Morgan is correct.
In Pearson, this court determined that the
natural rate of dissipation of THC in Tamisha
Pearson’s bloodstream did not justify a warrantless
blood draw under the exigent circumstances
exception. 64 This court held that the City failed to
show that waiting for a warrant would result in
losing evidence of the defendant’s intoxication, and it
“failed to show by clear and convincing evidence that
obtaining a warrant would have significantly delayed
collecting a blood sample.” 65
Here, the record at the CrR 3.6 hearing is devoid
of any evidence showing that it was impractical to
get a telephonic warrant once police noticed the
62
63

Report of Proceedings Vol. 1 (February 17, 2016) at 191-92.
192 Wn. App. 802, 369 P.3d 194 (2016).

64 See Missouri v. McNeely, 569 U.S. 141, 152, 133 S. Ct. 1552,
185 L. Ed. 2d 696 (2013).
65

Pearson, 192 Wn. App. at 816.

40a
bagged clothing in Morgan’s hospital room. The only
evidence from Officer Breault about telephonic
warrants is that no one applied for one. Why the
police did not apply for a warrant is not satisfactorily
explained.
In Pearson, this court acknowledged that exigent
circumstances may exist “only if the party seeking to
introduce evidence of a warrantless blood test can
show that waiting to obtain a warrant would result
in losing evidence of the defendant’s intoxication.” 66
But absent such evidence, the natural dissipation of
THC for example in a suspect’s bloodstream, will not,
by itself, constitute exigent circumstances. 67
Applying that rationale here, we see no reason to
relieve the State of its burden to show that applying
for a warrant in this case would have resulted in the
loss of whatever evidentiary value was in the bagged
clothing. There is simply nothing in the record of the
CrR 3.6 hearing on this critical evidentiary issue.
Notably, the record of the CrR 3.5 hearing shows
that one of the two detectives who interviewed
Morgan at the hospital on the night of the fire,
during a break in questioning, contacted the on-duty
homicide deputy prosecutor to determine how to
proceed. 68 Thus, to the extent consideration of
material outside the record of the CrR 3.6 hearing is
proper, it appears that the means of seeking a
telephonic warrant were readily available. In our
view, this buttresses the absence of evidence that
66

192 Wn. App. at 812-13.

67

Id.

68

Report of Proceedings Vol. 1 (February 4, 2016) at 103.

41a
exists at the CrR 3.6 hearing to show that
application for a warrant was impractical.
We turn again to Officer Breault’s testimony in
support of the warrantless seizure. In Pearson, there
was testimony that obtaining a warrant would
typically take 60 to 90 minutes and the dissipation
window was at least three to five hours. 69 Here,
there was no testimony about what chemicals might
have been on Morgan’s clothing or what the
dissipation rates for such chemicals were. Simply
saying dissipation was likely is patently insufficient
to support this seizure.
There was also testimony about the risk of cross
contamination of the clothing evidence. While we do
not dismiss this general concern, this record does not
appear to support the argument. The bagged clothing
remained undisturbed for hours on a shelf in the
hospital room, while Morgan was almost constantly
in the presence of police officers. He was not going
anywhere. There simply is no evidence to support the
view that anyone would have been successful in
contaminating the evidence without the police being
able to stop them.
The assessment of exigency requires a “careful
case-by-case” analysis, and the seriousness of the
crime being investigated is a factor. 70 Here, the
seriousness of the crime weighs in favor of exigency.
But that alone is not enough to overcome the need for
a warrant. If officers could reasonably obtain a
warrant before seizing Morgan’s clothing without
69
70

192 Wn. App. at 815-16.

McNeely, 569 U.S. at 152; Smith, 165 Wn.2d at 518.

42a
significantly undermining the seizure, they had to do
so. 71
The State relies on State v. Welker to support its
argument-that the potential loss of evidence provided
exigent circumstances justifying a warrantless
seizure of Morgan’s clothes. 72
Its reliance is
misplaced.
In Welker, officers pursued Kenneth Welker
shortly after responding to a reported rape in the
neighborhood. 73 They knew Welker from previous
investigations and came to his house to speak with
him. 74 The officers were invited into the house by
Welker’s mother and wife but denied entrance to the
basement. 75 They went down anyway and found
Welker, cowering naked under the stairs. 76 They
arrested him. 77
The court held that exigent circumstances
justified the warrantless entry into the basement
because officers had a reasonable belief Welker was
hiding there and was likely to quickly destroy any
evidence of the rape that remained on his body. 78
The rape had been reported at 1:47 a.m., and an
officer testified that trace evidence usually present in
rape cases such as hair, fibers, bodily secretions and
71
72

McNeely, 569 U.S. at 152.

37 Wn. App. 628, 683 P.2d 1110 (1984).

73

Id. at 630.

74

Id.

75

Id. at 631.

76

Id.

77

Id.

78

Id. at 633-34.

43a
scratches is transient and short lived. 79 The court
noted that “keeping the house under surveillance
while a warrant was obtained at 3:30 a.m. . . . was
not a practical alternative.” 80 Specifically, because
Welker had easy access to facilities inside the house
“[m]erely preventing [his] escape would not preserve
or prevent the loss of evidence which he carried on
his person.” 81
Here, there was no such exigency, on this record.
How Morgan, hospitalized for smoke inhalation
while almost constantly in the presence of police
officers interviewing him, could destroy the clothing
evidence in his room is left unexplained. And the
record shows that detectives were in telephonic
contact with a deputy prosecutor, through whom
they presumably could have applied for a warrant to
seize the clothing. In short, this case is of no
assistance to the State.
The State has failed to meet its burden to show
that applying for a warrant would have resulted in
lost evidence. 82 And the State failed to prove by clear
and convincing evidence that exigent circumstances
existed.
The State does not argue that this error was
harmless. On this record, it could not so argue.

79

Id. at 634.

80

Id.

81

Id.

82

See Pearson, 192 Wn. App. at 816.

44a
Plain View
The State asserts in its cross-appeal that even if
the warrantless seizure was not justified by exigent
circumstances, it was justified under the “plain view”
doctrine. It argues that the trial court erred in
believing that this doctrine did not apply because the
seizure was not inadvertent. We again disagree.
Under the plain view exception, if an officer is
conducting a lawful search and comes across an item
“the incriminating character of [which] is
immediately recognizable, that item may be
seized.” 83 The plain view exception to the warrant
requirement imposed by article 1, section 7 requires
“prior justification for intrusion,” “inadvertent
discovery of incriminating evidence,” and immediate
knowledge of the incriminating nature of the
evidence. 84
Here, Officer Breault did not decide to seize the
clothing bag when he entered Morgan’s room or at
any time during the next few hours. Instead, he
testified that he may have been directed by other
officers-none of whom testified at the hearing-to seize
the bag. His testimony shows that instead of making
the independent decision to seize incriminating
evidence in plain view, he assisted another officer
who came to collect the clothing in a special arson
bag. None of the authorities of which we are aware
apply to this factual pattern.

83
84

State v. Hudson, 124 Wn.2d 107, 114, 874 P.2d 160 (1994).
State v. Kull, 155 Wn.2d 80, 85, 118 P.3d 307 (2005).

45a
In addition, the plain view exception requires that
the officer immediately know that the evidence is
incriminating. 85 The exception only applies if police
officers have probable cause to believe the object or
evidence is contraband “without conducting some
further search, that is, the incriminating character
must be immediately apparent.” 86
Here, the record shows that Morgan’s clothing
was inside apparently opaque hospital bags. And
there was no testimony that Officer Breault detected
the scent of gasoline or any other type of accelerant
before he seized the bag. Therefore, as found by the
trial court, the incriminating character of the
evidence was not in plain view because neither blood
nor other relevant crime information could be seen
through the plastic bag. Officer Breault was not
justified in seizing Morgan’s bag of clothes as an item
immediately recognized as incriminating evidence.
Accordingly, we reject the State’s argument that
the seizure of Morgan’s clothing was justified under
the plain view exception to the warrant requirement.
There simply is no basis in this record to affirm on
this basis.
Bloodstain Pattern Analysis
After the trial court suppressed the bloodstain
pattern analysis results, the State obtained a
warrant and Kim Duddy performed a second
bloodstain pattern analysis. These results were
admitted at trial. Morgan argues that the trial court
85
86

Id.

Hudson, 124 Wn.2d at 118.

46a
erred in admitting these results because the initial
seizure of his clothing was unlawful. He argues that
“the results of the pattern analysis were not obtained
independently of the unlawful seizure.” We agree.
It
is
well-established
that
when
an
unconstitutional seizure occurs, “all subsequently
uncovered evidence becomes fruit of the poisonous
tree and must be suppressed.” 87 Here, the search
warrant was based on the affidavit of Detective
Jorgensen.
Detective Jorgensen stated that he
“conducted a visual examination of Morgan’s
clothing” when it was sealed in the evidence bags.
Based on that visual examination, Detective
Jorgensen sought the warrant so that a bloodstain
pattern analysis could be performed. Because the
seizure was unlawful, the results of the bloodstain
pattern analysis should have been suppressed.
Harmless Error
This court applies a harmless error analysis when
the trial court erroneously admits evidence that is
the product of a warrantless search. 88
A
constitutional error is harmless if the untainted
evidence is so overwhelming as to necessarily lead to
a finding of guilt. 89
Morgan argues that the error here was not
harmless because there were no witnesses to the
87

State v. Ladson, 138 Wn.2d 343, 359, 979 P.2d 833 (1999).

88 State v. Guloy, 104 Wn.2d 412, 425-26, 705 P.2d 1182 (1985),
cert. denied, 475 U.S. 1020, 106 S. Ct. 1208, 89 L. Ed. 2d 321
(1986).
89

Id. at 426.

47a
crime, and the bloodstain pattern analysis was the
only evidence indicating that he was in close
proximity to Welch when she suffered her head
injuries.
The State does not argue otherwise.
The denial of the suppression motion constitutes
reversible error.
Because we reverse on the bases explained, we
only address those remaining issues that may recur
at trial on remand. It is unnecessary to address the
other issues raised in this appeal.
MIRANDA
Morgan argues that his statements to the
detectives who interviewed him in his hospital room
should have been suppressed because they failed to
advise him of his Miranda rights. 90 We disagree.
“Miranda warnings were designed to protect a
defendant’s right not to make incriminating
statements while in police custody.” 91 They are
required “when an interrogation or interview is (a)
custodial (b) interrogation (c) by a state agent.” 92
Whether an interrogation is “custodial” depends
on whether the suspect’s movement was restricted at
the time of questioning. 93 The test is “whether a
See Miranda v. Arizona, 384 U.S. 436, 86 S. Ct. 1602, 16 L.
Ed. 2d 694(1966).

90

91

State v. Lorenz, 152 Wn.2d 22, 36, 93 P.3d 133 (2004).

92

Id.

Id.; See State v. Sargent, 111 Wn.2d 641, 649, 762 P.2d 1127
(1988).
93

48a
reasonable person in the individual’s position would
believe he or she was in police custody to a degree
associated with formal arrest.” 94
We review a trial court’s findings of fact following
a CrR 3.5 hearing for substantial evidence and
review de novo whether the findings support the
conclusions of law. 95 Unchallenged findings of fact
are verities on appeal. 96 We review de novo whether
an interrogation was custodial. 97
Morgan only challenges the statements he made
to the detectives, not to Officer Breault. The
following testimony was introduced at the CrR 3.5
hearing.
Around 10:40 p.m., two detectives arrived at
Swedish Edmonds to question Morgan. They were
wearing civilian clothes, but they had badges. Officer
Breault went into the hallway to give them privacy.
The detectives questioned Morgan until 11:30.
They then left the room while a nurse provided
medical treatment and assisted Morgan with the
bathroom. The detectives resumed their questioning
at 12:05 a.m. and questioned Morgan until around
12:45 a.m.
Morgan told the detective that he had come home
from work and fallen asleep. He awakened by being
struck on the head. He heard a voice that he thought
94

Lorenz, 152 Wn.2d at 37.

State v. Radcliffe, 164 Wn.2d 900, 907, 194 P.3d 250 (2008);
Lorenz, 152 Wn.2d at 30.

95

96

Lorenz, 152 Wn.2d at 30, 36.

97

Id.

49a
might belong to Welch. He went downstairs through
thick smoke and found the house on fire with Welch
against the back wall. She was on fire so he ripped
off her burning sweater and tried to pat out the
flames. He ran outside and only then realized that
Welch was not with him. At some point, he realized
she was in the garage.
One detective testified that he did not
immediately suspect Morgan but this quickly
changed once Morgan began answering the
detectives’ questions because his story did not match
up with the physical evidence. For example, despite
saying that he tried to put out the flames on Welch’s
burning sweater, Morgan’s hands were not burnt.
When the detectives returned to Morgan’s room at
12:05 a.m., the conversation became “a little more
confrontational.” The detectives told Morgan that
they believed he had assaulted Welch and started the
fire. Morgan was arrested the next evening when he
left the hospital.
Morgan challenges the trial court’s statement in
its oral ruling that the conversation between Morgan
and the detectives did not rise to the level of an
“interrogation” or “custodial interrogation.” This
statement is not part of the trial court’s written
findings and conclusions. Moreover, it is irrelevant
unless the trial court also determined that Morgan
was in custody when the detectives were
interviewing him. 98 It did not.
Morgan challenges the trial court’s factual
findings that he was not under guard, not restrained,
98

Id. at 36.

50a
and was not under arrest. He also challenges the
trial court’s conclusions that he was not in custody to
the degree associated with an arrest and thus
Miranda warnings were not required.
Morgan argues that he was under guard and in
police custody because the room was small, two
armed officers were inside, and another uniformed
officer was just outside the door. He further argues
that the trial court erred in finding that he was
“unrestrained” given that he was wearing an oxygen
mask and “tethered to medical equipment,” making
it difficult for him to get out of bed and to need
assistance to use the bathroom. Moreover, he was
alone and without family, friends, or any other
persons during the interrogation.
None of these arguments is persuasive in light of
the evidence in the record that supports the trial
court’s findings and conclusions. First, there was
testimony that law enforcement placed no
restrictions on Morgan’s movements, and he could
have left the room at any time. Officer Breault
testified that he was outside the door because the
room was small and he wanted to give the detectives
privacy, not because he was guarding Morgan.
In addition, to whatever extent Morgan was
unable to leave the room without assistance, his lack
of mobility was caused by his injuries, not any
actions on the part of the detectives. In these
circumstances, an accused is not “in custody” for
purposes of Miranda because in order to constitute
custody, the restriction on the suspect’s freedom of

51a
movement must be police-created. 99
Although
Morgan may have felt alone or that he was restricted
by his medical condition or the presence of law
enforcement, his psychological state is not relevant
to the objective determination of whether law
enforcement restricted his freedom of movement. 100
Morgan relies on the Ninth Circuit Court of
Appeals decision in United States v. Craighead, as
support for his argument that he was in custody
because he did not feel free to leave. 101 His reliance
is misplaced because Craighead concerned an
interrogation by law enforcement in Ernest
Craighead’s own home. 102 The court recognized that,
“[t]he home occupies a special place in the pantheon
of constitutional rights” and its “the most
constitutionally protected place on earth.” 103 Also, in
Craighead there were eight law enforcement officers
from three different law enforcement agencies
present, and the agents put Craighead in a storage
room at the back of his house to interrogate him. 104
Finally, although Morgan cites to the four factors
listed in Craighead, including whether the suspect is
isolated from others and whether officers told the
suspect that he was free to leave, and claims that
these factors must be considered under a “totality of
See, e.g., State v. Butler, 165 Wn. App. 820, 827-28, 269 P.3d
315 (2012).

99

100

Sargent, 111 Wn.2d at 649.

101

539 F.3d 1073 (9th Cir. 2008).

102
103
104

Id. at 1077.

Id. at 1077, 1083.
Id. at 1078.

52a
circumstances” analysis, he is wrong. The court
specified that those factors apply in determining
whether an in-home interrogation was custodial. 105
In Morgan’s case, the test is whether a reasonable
person would feel that they are in custody to the
degree associated with a formal arrest. 106 Under
that test, Morgan was not in custody. Thus, Miranda
warnings were not required during the interrogation.
JURY INSTRUCTIONS
Morgan argues that the trial court committed
reversible error when it refused to instruct the jury
that it must presume the fire was the result of
accident or natural causes. We hold there was no
abuse of discretion in declining to give this proposed
instruction.
“Jury instructions are sufficient if they are
supported by substantial evidence, allow the parties
to argue their theories of the case, and when read as
a whole properly inform the jury of the applicable
law.” 107 This court reviews a trial court’s decision to
reject a party’s jury instruction for an abuse of
discretion. 108
Morgan requested a jury instruction that:
Where a building is burned, the presumption
is that the fire was caused by accident or

105
106
107
108

Id. at 1084.

Lorenz, 152 Wn.2d at 37.

State v. Clausing, 147 Wn.2d 620, 626, 56 P.3d 550 (2002).

State v. Picard, 90 Wn. App. 890, 902, 954 P.2d 336 (1998).

53a
natural causes rather than by the deliberate
act of the accused. 109
The jury was properly instructed on the elements
of arson, that Morgan was presumed innocent, and
that the State had the burden of proving those
elements beyond a reasonable doubt.
In light of
these instructions, the trial court did not abuse its
discretion
in
excluding
Morgan’s
requested
instruction. 110
Morgan relies on State v. Smith, as support for
his contention that the court’s refusal to give the
requested instruction is reversible error. 111 But his
reliance is misplaced because in Smith, the court did
not address what other instructions were given to the
jury or whether those instructions would cure any
error. 112 As recognized by the court in State v.
Picard, the Smith opinion is “dubious authority for
the proposition that failure to give an instruction
that a fire is presumed to be accidental is reversible
error.” 113
In addition, Morgan has cited to no evidence in
the record that would support the presumption that
the fire was of accidental or natural causes. The trial
court did not abuse its discretion in refusing to give

109

Clerk’s Papers at 108.

Picard, 90 Wn. App. at 903; see State v. Kindred, 16 Wn.
App. 138, 141, 553 P.2d 121 (1976).

110

111

142 Wash. 57, 252 P. 530 (1927).

112 Picard, 90 Wn. App. at 903; see generally, Smith 142 Wash.
at 58.
113

90 Wn. App. 890, 903, 954 P.2d 336 (1998).

54a
an instruction
evidence. 114

that

is

not

supported

by

the

We reverse the judgment and sentence and
remand for a new trial.
/s/ Cox, J.
WE CONCUR:
/s/ Schindler, J.
/s/ Applewick, C.J.

State v. Staley, 123 Wn.2d 794, 803, 872 P.2d 502 (1994);
Kindred, 16 Wn. App. at 141.

114

55a
APPENDIX C
IN THE SUPERIOR COURT OF THE
STATE OF WASHINGTON IN AND FOR
THE COUNTY OF SNOHOMISH
STATE OF WASHINGTON, )
Respondent/Cross-appellant, )
)
vs.
)
)
DAVID MORGAN,
)
Appellant/Cross-respondent. )

No. 14-1-02409-1
No. 75072-1-I

EXCERPTS OF FEBRUARY 17, 2016
VERBATIM REPORT OF PROCEEDINGS
The Honorable Joseph P. Wilson
Snohomish County Court
3000 Rockefeller Ave.
Everett WA 98201
APPEARANCES
For the Plaintiff:

Paul Stern
Wallace Langbehn, III
Deputy Prosecuting Attorneys

For the Defendant: Donald J. Wackerman
Sarah Silbovitz
Public Defenders
Reported By:

Cherie Corthell, RPR, WA CCR
2109 West College #312,
Bozeman MT 59718

56a
*
*
*
*
*
*
[196] COURT: I’m going to deny the Defense request
to reconsider my previous ruling. It is clear to me, the
fact’s presented and testimony taken, that the seizure
of the clothes was done for the purposes of preserving
any accelerant type evidence on the clothing that was
detected either on the victim and potentially on the
defendant at the crime scene. It was known that there
was something going on. It wasn’t for blood evidence;
it was for the use of accelerant, gasoline, gasoline
fumes, or something of that nature. That determination was made fairly quickly in the initial stages of the
investigation; such that, at least from the victim’s
point of view, the team was sent to Harborview to obtain her clothing. That same team was going to—or
same individual—was going to obtain the clothing
[197] from the defendant, in due course.
What I focus on is, when does the exigent circumstances present themselves? And it presented themselves fairly quickly; that the—the decision to seize
was made, not after consultation, and not three-anda-half hours later; the decision to seize was made rather quickly, in time, in the investigation. That’s, I
think, where the focus of exigent circumstances begins. And I think once that decision is made, then you
follow up and you seize the clothes to preserve the evidence. And then follow that up with a warrant, as I
believe should have been done. I think all the facts
here point to, the State has met its burden and the
seizure was proper. So I’ll deny the motion.
*

*

*

*

*

*

57a
APPENDIX D
IN THE SUPERIOR COURT OF THE
STATE OF WASHINGTON IN AND FOR
THE COUNTY OF SNOHOMISH
STATE OF WASHINGTON, )
Respondent/Cross-appellant, )
)
vs.
)
)
DAVID MORGAN,
)
Appellant/Cross-respondent. )

No. 14-1-02409-1
No. 75072-1-I

EXCERPTS OF FEBRUARY 4, 2016
VERBATIM REPORT OF PROCEEDINGS
The Honorable Joseph P. Wilson
Snohomish County Court
3000 Rockefeller Ave.
Everett WA 98201
APPEARANCES
For the Plaintiff:

Paul Stern
Wallace Langbehn, III
Deputy Prosecuting Attorneys

For the Defendant: Donald J. Wackerman
Sarah Silbovitz
Public Defenders
Reported By:

Cherie Corthell, RPR, WA CCR
2109 West College #312,
Bozeman MT 59718

58a
*

*

*

*

*

*

[179] THE COURT: Are you giving up your plain-view
argument?
MR. LANGBEHN: No.
THE COURT: Are you giving up your incident-to arrest argument?
MR. LANGBEHN: No. On the exigent circumstances
argument—
THE COURT: Why do you need all three?
MR. LANGBEHN: Beggars can’t be choosers? Because
I think that all three could necessarily apply. As far
as the—
THE COURT: How could plain view apply?
MR. LANGBEHN: Because it’s readily identifiable as
evidence in the—in the—
THE COURT: They were sent there to collect them.
MR. LANGBEHN: But—
THE COURT: Exhibit 4, Zatylny sent them there to
collect.
MR. LANGBEHN: Sent Officer Reorda. But you heard
testimony from Officer Breault that he would have collected [180] it, but for—even if he was told by Detective Jorgensen to collect it, that he would have collected it because he recognized it as important. And
he—
THE COURT: He recognized through opaque shopping bags? He called them grocery bags. I know of no
grocery bags that you can see through.

59a
MR. LANGBEHN: No, I understand.
THE COURT: And he saw blood on clothing that he
didn’t even identify, through bags that you can’t see
through?
MR. LANGBEHN: Absolutely not.
THE COURT: And he recognized it immediately as—
MR. LANGBEHN: Nope.
THE COURT:—inadvertent discovery?
MR. LANGBEHN: No. What I’m saying is that he
knew—he suddenly realized that: There’s the defendant’s clothing; we know that this is an arson; we know
that it’s—we’re being—investigating possible accelerants; we know we need to preserve everything.
And that’s not properly se—I’m not saying he saw the
blood and goes, wait a minute, that’s blood. What I’m
saying is he saw clothing worn by the defendant—
THE COURT: So inadvertent discovery is more in
tune with: We’re investigating an arson—
MR. LANGBEHN: Right.
[181] THE COURT:—we went to the defendant, the
suspect’s room, or the person’s room, and there on the
counter I saw a knife that had blood on it; I wasn’t
there for that. That’s an inadvertent discovery.
MR. LANGBEHN: I understand.
THE COURT: It’s not a plain-view argument.
MR. LANGBEHN: Okay. I would argue that based on
the testimony you heard that exigent circumstances
absolutely does apply. I—there’s also this argument
about whether or not the expectation of privacy, um—

60a
THE COURT: Well, there’s a hospital case where they
place the defendant’s clothing—
MR. LANGBEHN: Smith.
THE COURT:—in a closet that had two doors.
MR. LANGBEHN: Right.
THE COURT: One available to a hallway the public
had access to, one available to his room. I’m not so concerned about the expectation of privacy in the analysis
of the warrantless search in this particular case. It is
an element, obviously, under Article 1, Section 7;
which give rise then to the constitutional protections
as outlined.
The State’s argument with regard to incident to arrest
is non-persuasive.
MR. LANGBEHN: Understood.
[182] THE COURT: The issue in my mind really does
come down to exigent circumstances, as you probably
deduced from my questions before we began taking
some formal testimony. And then you get to, is it necessary to have somebody testify as to why these items
were seized in the first place? I mean, I understand
somebody sending somebody to the hospital to seize
clothing; but you’ve got to tell me why. I think the
State has met its burden for this particular officer in
regards to why they were seized. I do believe that in
an arson investigation, where it is known that—the
likelihood of an accelerant being used, then anybody
who was in that fire may have accelerant on their
clothing; which would further the investigatory process.

61a
I think the record has been made that the—in these
type of investigations, there are special bags that have
been designed and are available to put clothing and
other items into so as to preserve that particular evidence. I don’t have a problem with the seizure of these
particular items being placed in the bag.
The second question, then, as I alluded to, is what do
we do after that? Does that seizure then allow the
State unfettered access to the evidence? My understanding is these things were seized November the
16th, 2014; sent to the crime lab September 8th or
something, 2015, with no additional warrants requested or authorized for an analysis.
[183] My understanding from reading the materials
you folks presented was that, at some point, within a
reasonable amount of time, the clothing for Mr. Morgan in the arson bags was opened and some device was
inserted to determine whether there were any—chemical trail of accelerants used on the clothing. And that
was within a fairly quick time frame, a week or—I
don’t know what it was. But whatever it was, I don’t
have any angst with that. I believe that that’s fine,
under the exigent circumstances, search and seizure.
But the question that I have, the problem that I have,
is I believe another warrant was needed to send those
materials to the crime lab; because now you’re talking
blood and blood spatter and other evidence that may
or may not be on there. The exigent circumstances
were satisfied; you seized it; they’re not going to be destroyed; you tested for an accelerant. Now, then the
exigent circumstances don’t exist. There’s no reason
why you don’t get a warrant.

62a
I mean, you’re getting a warrant for the cell phones;
which I’ll find exigent circumstances exist to seize
those. But you search pursuant to a warrant. I’ll find
that the knife is a product of plain view; I think that
clearly is within that. The blood on the knife I think
clearly can be tested under that theory, plain view.
*

*

*

*

*

*

